<html>
<title> - WANTED: FOREIGN FIGHTERS—THE ESCALATING THREAT OF ISIL IN CENTRAL ASIA</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                      WANTED: FOREIGN FIGHTERS_THE.
                       ESCALATING THREAT OF ISIL.
                            IN CENTRAL ASIA

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-4]
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                   Available via http://www.csce.gov
                   
                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
95-333 PDF                   WASHINGTON : 2015                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>  
                   
                   
                   
                   
                   
               


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE				   SENATE

                                                 
CHRISTOPHER H. SMITH, New Jersey, 		ROGER F. WICKER, Mississippi,
Chairman					Co-Chairman
ALCEE L. HASTINGS, Florida			BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama			JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas			RICHARD BURR, North Carolina
STEVE COHEN, Tennessee			        JEANNE SHAHEEN, New Hampshire	
ALAN GRAYSON, Florida				TOM UDALL, New Mexico
RANDY HULTGREN, Illinois			 SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                                

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]


                     WANTED: FOREIGN FIGHTERS--THE
                       ESCALATING THREAT OF ISIL
                            IN CENTRAL ASIA

                              ----------                              

                             June 10, 2015
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Joe Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

                               WITNESSES

Daniel N. Rosenblum, Deputy Assistant Secretary for Central Asia, 
  U.S. Department of State.......................................     4
Frank J. Cilluffo, Associate Vice President and Director, Center 
  for Cyber and Homeland Security, The George Washington 
  University.....................................................    18
Jennifer Leonard, Deputy Director, International Crisis Group....    20

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    32
Prepared statement of Hon. Roger F. Wicker.......................    33
Prepared statement of Hon. Benjamin L. Cardin....................    34
Prepared statement of Daniel N. Rosenblum........................    35
Prepared statement of Frank J. Cilluffo..........................    40
Prepared statement of Jennifer Leonard...........................    47

                                 [iii]


                     WANTED: FOREIGN FIGHTERS--THE.
                       ESCALATING THREAT OF ISIL.
                            IN CENTRAL ASIA

                              ----------                              


                             June 10, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:33 p.m. in room 2175, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Joe 
Pitts, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Steve Cohen, Commissioner, Commission on Security 
and Cooperation in Europe; and Hon. Randy Hultgren, 
Commissioner, Commission on Security and Cooperation in Europe.
    Witnesses present:  Daniel N. Rosenblum, Deputy Assistant 
Secretary for Central Asia, U.S. Department of State; Frank J. 
Cilluffo, Associate Vice President and Director, Center for 
Cyber and Homeland Security, The George Washington University; 
and Jennifer Leonard, Deputy Director, International Crisis 
Group.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And first of 
all, let me apologize for convening the Commission hearing 
late. We did have a series of votes, so again I apologize to 
our witnesses and to all of you for that lateness.
    I want to express a very hearty welcome to our witnesses 
and to everyone joining us this afternoon for this hearing on 
foreign fighters and the escalating threat of ISIS in Central 
Asia. A year ago today the city of Mosul fell to the Islamic 
State of Iraq in Syria, or ISIS, during a wave of violence that 
swept brutally through northern Iraq. Many of those who took 
part in the offensive were foreign fighters.
    In fact, the United Nations Security Council recently 
estimated that there are now at least 25,000 foreign terrorist 
fighters from more than 100 countries who have traveled 
internationally to join or fight for terrorist entities 
associated with ISIS and al-Qaida. According to the 
international crisis group, as many as 4,000 foreign fighters 
came from the five countries in Central Asia. Just last week, 
we learned that the chief of Tajikistan's counterterrorism 
program--someone highly trained by the United States 
government--abandoned his post to join ISIS.
    What does this say about the current efforts to stop 
terror-
minded men and women from volunteering and traveling to the 
Middle East? Clearly our government, working with others and 
with organizations like the OSCE, must take stronger action to 
combat radicalization beyond our borders, as well as to ensure 
that returning foreign fighters do not bring jihad and murder 
back home. Central Asian governments face major challenges 
here. Many of these derive from their history as part of the 
Soviet Union, from wars in nearby Afghanistan, and from limited 
economic development which has led millions of their citizens 
to seek employment abroad, especially in Russia.
    The discrimination and exploitation to which these workers 
are subjected, as well as the decline in the Russian economy 
and changes in the Russian visa regime, have reduced the 
remittances these workers can send home to support their 
families, and may have contributed to creating conditions that 
ISIS uses to recruit foreign fighters from among different 
Central Asian nationalities.
    Some of the challenges the Central Asia governments face 
are of their own making, including widespread corruption, lack 
of the rule of law and their own human rights records. 
Turkmenistan and Uzbekistan have particularly terrible human 
rights records, among the worst in the world with respect to 
political prisoners and the use of torture. All of these 
factors are exploited by ISIS recruiters and other 
organizations promoting radicalization and violent extremism.
    It should be the particular role of the U.S. to promote to 
the Central Asian governments our conviction that fighting 
terrorism is no excuse for violating human rights or the rule 
of law. I look forward to hearing about many of the issues 
here, including counteracting radicalization of potential 
foreign fighters, inhibiting the travel of recruits and 
volunteers to the Middle East, disrupting financial support to 
fighters and their families and preventing their return to 
their home countries.
    This is in the first place the responsibility of the 
governments. And there is the question of what they are trying 
to do and how well they are doing it. There is a question of 
what our government and the OSCE is doing, and perhaps can do 
better, working with Central Asian governments. Here we need to 
talk about issues of document security, border security and law 
enforcement coordination. And I hope we can touch, during this 
hearing with our very distinguished witnesses, on all of these 
very pertinent issues and others.
    I'd like to yield to Mr. Pitts--Commissioner Pitts for any 
opening comments he has.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing.
    And I'd also like to thank Mr. Rosenblum and the rest of 
our panelists for testifying here today.
    The Islamic State, or ISIS, poses a direct and substantial 
threat to U.S. interest and security, as well as the security 
of the Middle East. Just a few months back, Islamic States 
spokespeople threatened to spread its brutality outward across 
the Mediterranean to Rome, one of the focal points of Western 
civilization. As the United States Government seeks to contain 
and even degrade and destroy the Islamic State, the 
contribution that foreign fighters offer inwardly to the 
terrorist organization is of vast significance.
    It has been estimated that more than 20,000 foreign 
fighters from possibly up to 90 countries have traveled to 
Syria to take up arms since the Arab Spring. And this includes 
approximately 180 of our own citizens. The concern voiced by 
the State Department and other observers and analysts on this 
issue is very disturbing. One State Department official 
characterized it as formidable--an enormous threat.
    To put it simply, the United States Government and its 
allies, and indeed all of those combating the Islamic State, 
cannot hope to destroy the terrorist organization without 
substantially cutting off or mitigating the number of foreign 
fighters that fill its ranks. As noted by many observers, the 
amount of foreign fighters stemming from Central Asia amounts 
to only a small fraction of the thousands of foreign Islamic 
State fighters. However, the region's significance in 
addressing the problem may prove to be pivotal.
    While we haven't necessarily seen the amount of fighters 
originating from Central Asia as those from Europe, the 
potential for extremists to change this dynamic is great. I am 
encouraged by some of the actions from governments in the 
region, including attempts to punish participation with the 
terrorist group with penal codes. I believe the United States 
Government must do more, both in the short term and long term, 
to address this threat.
    I've been in discussion with officials from the Republic of 
Kazakhstan, for instance, on the need to increase economic 
opportunities in the region through greater leverage of the use 
of trade and power of American competitiveness and markets. As 
WE observe this issue, it is my hope that we can find policy 
tools that can obstruct the flow of foreign fighters, but also 
give the people of this region greater exposure to freedoms, 
prosperity and, ultimately, spiritual identities that don't 
lead them to join the cult of death that the Islamic States 
represents.
    Again, thank you very much, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much, Commissioner Pitts.
    Commissioner Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chair.
    And I'm just looking forward to your testimony, although I 
think I've read it. I understand--you say recruiters employ a 
variety of narratives to attract adherents with the idea of a 
just war and defense of innocents, an Islamic caliphate as a 
utopia, and the opportunity to fight back against Western 
oppression. I think all those things are accurate and I can't 
question what you're saying here.
    But I was at a conference recently on Middle East. And a 
fellow from Middle East suggested that a lot of the attraction 
was young people not having opportunities at home and not 
having opportunities to have--he got pretty basic in terms of 
relationships and no opportunity to have a job and to be able 
to afford to get married and not having too much of an 
opportunity to have partners of the opposite sex, and that they 
made him kind of like a football player in America, or a rock 
star, and gave him some kind of special panache.
    And I wondered what you thought about that theory. This was 
a Saudi who has been on boards X, Y and Z and pretty wired in. 
And this was his theory what attracted them, and that there's 
not much other opportunity for young males in those countries 
to do much, because no jobs, no money, no wife, nothing else 
going on. They don't have rock stars. They don't have--I guess 
they got a few soccer players, but they don't have LeBron and 
they don't have Tom Brady and whatever. I'm just curious what 
you thought about that theory.
    And the other thing is social media, how we can use social 
media better to try to give them a different perspective of 
maybe what they should be doing with their lives, and to try to 
counterbalance the whole idea of jihadist suicide. Thank you.
    Mr. Smith. Thank you very much.
    I'd like to now welcome our very distinguished witness from 
the administration, Mr. Daniel Rosenblum, Deputy Assistant 
Secretary for the Department of State's Bureau of South and 
Central Asia. Before his appointment as Deputy Assistant 
Secretary, Mr. Rosenblum served 17 years in the State 
Department's Office of the Coordinator of U.S. Assistance to 
Europe, Eurasia and Central Asia, including 6 as coordinator.
    He was instrumental in designing and implementing large 
packages of assistance for Ukraine, Georgia and Kyrgyzstan 
following internal upheavals and for Kosovo, following its 
declaration of independence. Before coming to the State 
Department, Mr. Rosenblum spent six years as senior program 
coordinator at the Free Trade Union Institute, FTUI, of the 
AFL-CIO. And without objection, your full resume will be made a 
part of the record.
    But finally, Mr. Rosenblum has a B.A. in history from Yale 
and an M.A. in Soviet studies and international economics from 
Johns Hopkins School of Advanced International Studies. 
Welcome, the floor is yours.

  DANIEL N. ROSENBLUM, DEPUTY ASSISTANT SECRETARY FOR CENTRAL 
                 ASIA, U.S. DEPARTMENT OF STATE

    Sec. Rosenblum. Thank you very much, Mr. Chairman, and 
members of the Commission who are here. Thank you for inviting 
me to testify today. I'd like to give some brief remarks and I 
ask that my full written statement be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Sec. Rosenblum. Mr. Chairman, disrupting the flow of 
foreign fighters to Syria and Iraq is a top priority for the 
U.S. Government. The United States is working with governments 
in Central Asia and with multilateral organizations who are 
operating in the region--including the Organization for 
Security and Cooperation in Europe, which I know is of special 
interest to this Commission--in ways that parallel the work we 
do with partners around the world.
    Together with our international partners, we're committing 
significant resources to track and disrupt foreign terrorist 
fighter travel and recruitment. We're working together on 
information sharing and border security, legal reform and 
criminal justice responses, and countering violent extremism to 
prevent recruitment and radicalization to violence. And we're 
encouraging our key partners, including in Central Asia, to 
prioritize this threat.
    While there are no reliable statistics, research suggests 
that the vast majority of Central Asia fighters in Syria and 
Iraq are recruited while outside their own countries, mostly 
while in Russia, where millions of them live as migrant 
workers. They are without the family, community and religious 
leaders that back home would all work to mitigate recruitment 
and radicalization. Furthermore, many Central Asians working in 
Russia are marginalized and experience discrimination and 
harassment.
    This combination of factors creates fertile ground for 
extremist recruiters. The recruiters then employ a variety of 
narratives and methods, especially using social media, to 
attempt to attract adherents and radicalize recruits to 
violence. Similar tactics are used to attract the individuals 
who travel directly from Central Asia. The new recruits join 
not only ISIL, but other terrorist organizations as well, such 
as the al-Nusra Front.
    Given the complex interplay of factors, there is no one-
size-fits-all approach to counter this phenomenon, but one key 
long-term effort we are engaged in is to improve economic 
prospects to allow Central Asians to find employment at home, 
where radicalization to violence is less likely to take place 
than among migrant worker communities in Russia. We've also 
begun to engage the governments and people of Central Asia on 
how they can disrupt recruiting, prevent radicalization, hinder 
financing, prevent travel of recruits and also engage civil 
society and counter false narratives.
    Let me turn for a moment from the conflict in Syria and 
Iraq to briefly address recent media reports on the presence of 
ISIL in Afghanistan, which borders three of the Central Asian 
countries. We have seen signs that ISIL is attempting to spread 
into Afghanistan, and that some Taliban groups have rebranded 
themselves as ISIL to attract funding and recruits. But ISIL's 
presence in Afghanistan is still a relatively new phenomenon 
and it will take time to evaluate its long-term prospects.
    Let me now talk more specifically about some of the efforts 
we're undertaking at the global, the regional, and the national 
levels. Through the global coalition to counter ISIL, which 
we've been encouraging our partners in Central Asia to join, 
our key efforts include disrupting the flow of foreign fighters 
and countering the messaging of violent extremists. Counter-
messaging is a critical element because so much of the 
radicalization of recruiting happens through social media.
    Also, on the global level, President Obama chaired the U.N. 
Security Council session last fall that adopted Resolution 
2178, which requires countries to take a range of steps to 
address the threat of foreign terrorist fighters and calls for 
improved international cooperation. This resolution resonated 
in Central Asia, and in August the OSCE will hold a regional 
workshop in Kazakhstan on its implementation. Then in February 
of this year, the White House convened a summit on countering 
violent extremism that brought together governments, 
international organizations, civil society groups and the 
private sector to develop a comprehensive CVE action agenda--
that's countering violent extremism, CVE.
    Regionally, we're supporting a CVE summit that the 
government of Kazakhstan will host in Astana at the end of this 
month to follow on the White House meeting. The Astana summit 
will focus on eight priority areas, ranging from assessing the 
drivers and threats of violent extremism to counter messaging, 
to how governments and communities can work together. And we're 
also supporting this month a regional civil society CVE summit 
that will be held in Istanbul. And it will focus on nine 
priority areas ranging from the role of women and youth in the 
CVE efforts to rehabilitation and reintegration of violent 
extremists who return home.
    Such gatherings not only enhance information sharing, but 
they also generate action. For example, as a follow up to the 
White House CVE summit, the OSCE has now developed a multiyear 
program to build the capacity of civil society, including youth 
and women, to counter violent extremism. We're also supporting 
the OSCE and other regional efforts. This past February, it 
organized a three-day workshop in Dushanbe on regional 
cooperation and response to foreign terrorist fighters, the 
first such meeting of its kind in Central Asia.
    At the national level, our diplomats regularly engage on 
these issues and we encourage a comprehensive approach that 
includes security improvements that are in line with 
international human rights obligations, as well as community-
level programs to address the root causes that may be making 
some Central Asians vulnerable to recruitment by extremist 
groups.
    We have bilateral programs in each country that not only 
build law enforcement capacity, but also train in community 
policing techniques and how to increase the role of religious 
leaders in conflict resolution. We're working closely with the 
OSCE on several such programs and I'd refer you to my written 
testimony for more details on country-by-country.
    The nations of Central Asia are taking up this challenge, 
Mr. Chairman. And the U.S. will continue to work with global 
institutions, with regional groups and national governments to 
reduce the threat. Thank you, and I look forward to your 
questions.
    Mr. Smith. Secretary Rosenblum, thank you very much for 
your very comprehensive testimony and, again, in your written 
submission you do go into great depth with each of the 
countries, and this Commission certainly appreciates it.
    I have a couple of opening questions. You point out and you 
have listed in your bullets the topics that will be discussed 
at the CVEs, including at the Istanbul summit. Turkey has 
become a primary transit state for Central Asians traveling to 
Syria--low airfares, there's a whole number of reasons, plus a 
500-mile border with Syria. I'm wondering if that will be a 
major focus of that Istanbul summit when you convene it.
    Let me also ask you, Gulmurod Khalimov, the Tajik military 
officer who recently defected to ISIS, received extensive 
military training in the U.S. Can you tell us what kind of 
safeguards are in place to prevent defection by Central Asian 
military members participating in U.S. training?
    Just a parallel, in a way, for years during the troubles in 
Northern Ireland, it was very disconcerting to me and a whole 
lot of other people that at the FBI academy some of the people 
involved with terrorism who were part of the Northern Irish 
police force there were actually terrorists. I actually wrote a 
law that said they all had to be vetted. I'm wondering if we're 
properly vetting people who get that training to ensure that 
inadvertently we don't train someone who's doing such horrific 
things.
    Let me also ask you, as a Russia expert--as we all know, 
many of the recruiters very often can go into the migrant 
communities in Russia and play on the dissatisfaction and 
demoralization of those there. I know we're at pretty much 
loggerheads with Russia over Ukraine and, you know, things are 
not the way they could be--hopefully someday will be in terms 
of our relationship with Russia. But let me ask you, how are 
they doing and are we assisting them in any way? Are they aware 
of this problem--of this massive recruitment that appears to be 
happening?
    And finally, in what ways do you think human rights 
violations by Central Asian states feed jihadist radicalization 
and ISIS recruitment? And how does that vary from state to 
state? Are the various Stans, different countries in the 
Central Asian region, are they receptive of that? This 
Commission has held multiple hearings, site visits, meetings 
with the presidents, prime ministers and parliamentarians for 
years. And human rights is always our first point of engagement 
with each of those countries. If you could, perhaps, address 
that.
    Sec. Rosenblum. OK. Thank you for those questions, Mr. 
Chairman. Hopefully I'll cover all of them, but please remind 
me if I've left out something.
    So, first of all, you asked about the upcoming conference 
in Istanbul and Turkey's role as a transit country. I don't 
believe, actually, that the agenda of that conference will 
focus on that question because the conference is a civil 
society meeting. I believe the focus will be on what civil 
society groups can do in their communities and in their 
countries to contribute to preventing the root causes, 
essentially. It's sort of local-level engagement to prevent the 
drivers of radicalization, as it's often referred to.
    The issue of the transit through Turkey is something that 
comes up, for us, frequently in our dialogue with our Central 
Asian partners as well. And it is something that's of concern 
and we're working closely with Turkey on these issues, but I 
don't believe that it's going to be focused on in the 
conference.
    Mr. Smith. I understand going after systemic causes, but it 
would seem to me that if since it is a large transit area, 
country--has Ankara been responsive? Or are they really toeing 
the line to try to mitigate this transit?
    Sec. Rosenblum. Yeah. Turkey co-chairs with the Netherlands 
the Foreign Terrorist Fighter Working Group of this counter-
ISIL coalition that the U.S. has helped put together. We 
consult very frequently and with high intensity with Turkey on 
these issues, on the foreign terrorist fighter flow.
    Turkey signed a letter of intent on March 12th to improve 
information sharing on foreign terrorist fighters and known and 
suspected terrorists. We also co-chaired the Global 
Counterterrorism Forum with Turkey. So there's a lot of 
engagement with Turkey on this issue now. And Turkey itself 
acknowledges the scope of the problem and that they need to do 
more. So we're encouraging that line.
    Let me talk for a minute about Mr. Khalimov, the head of 
the interior ministry special forces who defected recently and 
has claimed in a video that he had joined ISIL. He was an 
important leader in the security forces in Tajikistan who came 
up through the ranks over about a 10-year period, during which 
he participated in five Department of State-sponsored 
antiterrorism assistance program trainings between 2003 and 
2010.
    The process for selecting for training, which goes to your 
question, involves first selection by the government--so in 
each case it was the government of Tajikistan that selected and 
recommended him to participate in training. And to be honest, 
it was appropriate given the positions that he held. And then 
we do vetting ourselves. We vet all participants in this 
training course through processes we have under the so-called 
Leahy amendment, to determine that there's no record of gross 
human rights violations.
    Mr. Khalimov was vetted in each case and passed our 
standard vetting procedures. So I should emphasize here that we 
offer the training and the other government that we're working 
with identifies the students for training. The vetting is an 
additional measure after the students are identified for the 
program.
    Now, your specific question, I think, at the end was 
whether there's some technique that could be used to sort of 
screen or identify people who are potentially recruits, so to 
speak. And I don't know the answer to that, to be honest with 
you, Mr. Chairman, today. It is something that we have to think 
long and hard about. Something tells me that it would be very 
difficult, because the motivations are so complex.
    And that's something that I think Mr. Cohen actually 
referred to in the question he asked in the opening. We can 
talk more about that later. But the interplay of factors that 
go into someone ending up doing what Khalimov did are so 
complex that it might be difficult. But that doesn't mean we 
shouldn't look at whether there are things that could be done 
to screen out people.
    Mr. Smith. Now, was he a lone wolf? Or he's not part of a 
trend, as far as we know. Have there been others?
    Sec. Rosenblum. We're following it closely. We're talking 
to the government of Tajikistan about it. We----
    Mr. Smith. Or any of the other countries, too.
    Sec. Rosenblum. Yeah, we don't have any evidence that he's 
part of some larger network yet.
    So that----
    Mr. Smith. But again, in terms of people we've trained, we 
have no evidence that there are other people who have followed 
the course of going into ISIS or al-Qaida?
    Sec. Rosenblum. Right, no evidence that other people who 
are involved in the same training are going the same way.
    You asked about Russia. And on Russia, I think it's fair to 
say that the Russian Government has acknowledged the problem. 
And there have been statements--public statements by senior 
officials both about the growth of foreign terrorist fighters 
in Syria and Iraq, and also about the fact that some of them 
are being recruited from within the territory of the Russian 
Federation. That concern has been expressed and also acted on 
through support, for example, for the U.N. Security Council 
resolution that I referred to earlier.
    Russia did participate--they were invited and they 
participated in the summit in February on countering violent 
extremism that was held here. They sent a high-level 
delegation. Russia is also a founding member of the Global 
Counterterrorism Forum, this group, and has been invited to 
participate in this Astana meeting--regional meeting that will 
be held in Kazakhstan later this month.
    So we work together where possible to find ways of 
disrupting the travel of foreign fighters, and we'll continue 
to do so. I think it is fair to say, as you characterized it 
too, that the level of our engagement on a lot of issues with 
Russia these days is not as robust as it has been in the past. 
But nonetheless, this is an issue where we clearly have shared 
concerns.
    And then I think your last question was about human rights 
and in what ways do human rights violations and so on fuel 
recruitment. I'd start out by saying that we are concerned that 
lack of respect for human rights, limitations on freedom of 
religion specifically could potentially be used by extremist 
groups in their efforts to recruit individuals and to 
radicalize them to commit acts of violence. And these things 
could also contribute to what people refer to as self-
radicalization, where people through social media and other 
means become inspired.
    But at the same time, the recruitment process and this 
radicalization process are complex phenomena. And we don't have 
evidence of a direct causal link between restrictions on rights 
and radicalization. The lack of evidence of a direct link 
doesn't mean that we don't take the issues of human rights and 
religious freedom and other related issues less seriously, and 
we engage regularly with the governments in Central Asia on 
these issues and raise them in many fora and many 
opportunities. But I guess I would just come back to the main 
point that there's a potential there, but we have not seen the 
evidence--no one has brought to us the evidence of a direct 
causal link.
    Mr. Smith. Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    You mentioned some of the questions I asked earlier, and I 
guess--I presume you were referring to the incentives or the 
reasons why. I mean, I know you're not--because he's passed--
Dr. Freud, but can you help us with the 2015 Freud analysis of 
the ISIS fighter and their desires? Easy question right?
    Sec. Rosenblum. So, Congressman, it is a complex issue, as 
I said before, and the motivations are complicated. Often the 
people who study this--and I had to talk to the experts because 
I confess I'm not an expert on radicalization and the 
recruitment issue. But they talk about there being three types 
of motivation, and sort of divide them into three categories: 
the ideological motivations, which could be political or could 
be religious. So for example, we have to get rid of Assad, so I 
want to go to Syria to fight to overthrow the Assad regime.
    Then you have the psychological motivations, which will 
vary from individual to individual, even to the level of 
somebody being a sociopath being inclined to violence and being 
drawn to it, not necessarily for ideological reasons.
    And then there's the situational category of motivations--
which is a big basket, a broad range of things. But it could be 
anything from my community that says it's OK to go fight and to 
commit acts of terrorism, or lack of opportunities, economic 
opportunities, a feeling of hopelessness, a feeling of 
drifting.
    So all of those things could be possible explanations in 
any given case. And they're probably not all going to play the 
same role in any country. So as we're focused here on Central 
Asia, it's hard to say what's the primary driver to those 
Central Asians who are joining, except that the one interesting 
piece of evidence we have, that I presented in my testimony, is 
that it does seem that the majority--even some say the vast 
majority--of those Central Asians going to fight in these 
conflicts are coming from outside of Central Asia. So that's 
suggestive of something, and I presented some possible 
explanations related to the situation faced by migrant workers 
in Russia. But a lot of it is conjecture at this point.
    Mr. Cohen. You probably can't answer my question, and you 
haven't, and maybe it can't be answered and it was just a 
suggestion this man made and is fairly simplistic and I don't 
have any answer, but part of it's the disparity in wealth in 
all those nations. And then we have a terrible disparity here, 
but compared to what it is in the Middle East, we're Nirvana. 
And they have very little hope. And it seems like these 
nations--a lot of people at the top making--or taking, I don't 
know if they make it, they take it--lots of money. And they're 
living beyond the Kardashians.
    And then the rest of the people have got nothing. And so 
the idea of going off and fighting and putting a Kalashnikov 
over your shoulder and having some women that think you're 
great that come over there to be your bride is a pretty 
attractive life for somebody who has no life whatsoever where 
they are. Now, maybe the migrant workers in Russia, but I don't 
know how we're going to stop that until there's more of a 
democratization in those nations and throughout the Middle 
East.
    And it's part of the whole problem, I think, that we're 
seeing in terms of revolution and failed states and chaos, 
which we have in the Middle East, is the disparity in wealth 
that's gone on. And the Saudis, you see it there. It's all 
throughout. I guess USAID can help, other opportunities like 
that. Social media can help. And from what I understand, this 
conference I went to recently with quite a few folks from the 
United States and from around the world, everybody was in 
agreement that our social media campaign is inadequate.
    And we don't do a very good job of reaching the young or 
influencing the young, and that we could do it better with some 

cultural-type icons and trying to find ways that we can reach 
them. I don't know who's doing our social media programs, but 
we got the best social media people in the world in the United 
States. And why our State Department or government isn't trying 
to incorporate some of the ideas they can get and help us is 
beyond me, because we don't seem to be doing it. Do you know if 
we've reached out to any of these companies in Silicon Valley 
or wherever? Have we?
    Sec. Rosenblum. Yes, we have collaborated with some 
companies. I will defer to colleagues who know more about this, 
and we can get back to you with a more detailed answer to your 
question on social media specifically. But I know that there's 
been exchange with private companies in the past and 
collaboration on this issue.
    There is also an interagency body housed at the State 
Department, the Center for Strategic Counterterrorism 
Communications, which was established specifically to counter 
recruitment online through counter-messaging. And it is engaged 
now in a sustained campaign against the ISIL and other groups 
online messaging to combat their ability to recruit new 
fighters. So there is an effort being made. It can always be 
better.
    Mr. Cohen. Is Russia doing anything in the same capacity? I 
mean, I know they've got problems in Chechnya and Dagestan and 
all the Stans. But they're very concerned about radical Islam. 
Are they--if you say that most of these foreign fighters are--I 
think that's what you said--they're coming from being migrant 
workers in Russia. Are they not concerned that they're going to 
return to Russia? I mean, we seem to be concerned that some of 
these folks are going to return to the United States. Isn't 
Russia concerned? And are they doing anything about it?
    Sec. Rosenblum. They are concerned. And the details of what 
they're doing about it, to be honest, I don't know. We can get 
back to you about what we do know. I know that they have 
supported the international efforts that I referred to 
earlier--the U.N. Security Council, participating in our CVE 
summit. But what they're doing domestically to address the root 
causes and so on, I'll have to come back to you with a more 
detailed answer on that.
    Mr. Cohen. Thank you, Mr. Chairman. I yield back the 
balance.
    Mr. Smith. Thank you, Mr. Cohen.
    Commissioner Pitts.
    Mr. Pitts. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your testimony and for coming 
today.
    Let me explore a little bit more--you're talking about root 
causes and the economic aspect of this attraction. Could you 
explore or explain a little bit about the religious dimension 
of this attraction? Is it true that this brand of Islamic--
radical Islam that believes in this caliphate being 
established--if they're of that brand, they are compelled to go 
and defend the caliphate, just like others in Islam believe 
they have to take a trip to Mecca once in a lifetime? Can you 
explore a little bit of the religious dimension or motivation 
that you understand here?
    Sec. Rosenblum. Sir, as I understand it, that religious 
message--the message of establishing the caliphate does have 
appeal for some, but it's a minority. It's not something that 
is part of the religious traditions of Central Asia, of the 
mainstream Islam that's established in Central Asia.
    And one often hears that those who are attracted to the 
messaging and the ideal picture of this caliphate that they 
will join are those who are probably not well-educated in their 
religion, that they may be ignorant of it. And so actually one 
of the efforts that we've been making in some countries in 
Central Asia is working with local governments, working with 
community groups to get religious leaders more involved in 
community education, both about the dangers of the messages 
that are coming out and also trying to fill in some of the gaps 
that exist.
    So in fact I just learned yesterday of a program that we're 
doing in Kyrgyzstan which involves the religious 
establishment--that is the deputy mufti who's the head of the 
religious council there--local law enforcement in communities 
in Kyrgyzstan and community groups talking about how religious 
leaders can play a more active role in seeing the danger signs 
that some of this messaging is resonating and providing 
information that might help to counter it, they hope. And so we 
actually supported this through a grant from our U.S. embassy 
in Kyrgyzstan, this program.
    And OSCE in addition is doing programming like this, 
working at the community level. So it's about not having 
information, not having multiple sources of information. It's 
also--I think also about not really understanding their own 
religious traditions completely, and therefore being more prone 
to believe what they're reading online.
    Mr. Pitts. If I can shift to another issue, due to the 
relatively cheap flights, ease of visa restrictions and a 
growing market aimed at aiding foreign fighters along their 
journey, Turkey has become a primary transit state from--for 
Central Asians traveling to Syria. Are the Turkish authorities 
currently doing enough to prevent foreign extremist entry into 
Turkey and departure to Syria? And what can the United States 
do to help our NATO ally more effectively clamp down on their 
500-mile border with Syria?
    Sec. Rosenblum. Congressman, as I said in my earlier answer 
to the Chairman, there is a major problem of the transit 
through Turkey. It's something that comes up frequently in our 
dialogue with our Central Asian partners as well, because 
everyone's aware that that's the route that people take. And it 
is something that the government of Turkey recognizes and is 
taking seriously. The President just a couple days ago at the 
G7 summit referred to this as one of a number of elements of 
combating ISIL and said that Turkey can do more. And we're 
working with them to help to take stronger action.
    Mr. Pitts. The five Central Asian states that we're talking 
about here have fragile governance structures and lack the 
ability to adequately provide jobs and education and health 
care to the citizens. And some reports argue that this lack of 
social stability and structure tempts individuals to turn to 
ISIL/ISIS, in the belief that it can provide better 
opportunity, perhaps a better future for their families. How 
have we, or can we or might we, encourage the Central Asian 
governments to address these issues in order to create more 
inclusive and appealing societies? What aid can the U.S. 
provide in order to help build government institutions and 
strengthen the rule of law?
    Sec. Rosenblum. So that's a very good question, 
Congressman. And the answer is a complicated one, as it often 
is on this issue. First of all, we always stress in our 
dialogue with our Central Asian partners that in the long term 
stability and security is best ensured in countries where the 
citizens can provide for themselves economically and where 
government is responsive and accountable. And so that is 
definitely part of our message about the long term. And that's 
something that we say all over the world when we're engaging 
with other countries on these issues of internal governance.
    At the same time, on the specific issue of recruitment by 
ISIL and foreign fighters going to Syria and Iraq, as I said 
earlier, the motivations for those individuals to go are very 
complex and it's hard to untangle the multiple possibilities of 
why they're going. There may be cases where the economic 
circumstances or frustration that somebody's feeling in their 
local community toward local authorities or whatever it is 
could be a factor, but it may be one among many. And we just 
don't have evidence of that causal link. The question is, 
though, what can we do to help address some of these issues, 
which are important even if they're not a cause of foreign 
fighter recruitment?
    And the answer is that we've been working for the past 20 
to 25 years in all these countries to try to improve economic 
systems, to try to improve the performance by, for example, 
helping small business buildup, improving government policies, 
investment climate and all those sorts of issues, and also by 
working with governments and with civil society to improve how 
government delivers for its citizens. Part of that is fighting 
corruption. That's a major issue in the region, and in many 
countries, of course, around the world. And part of it is also 
just how to deliver services to citizens in a way that they 
deserve.
    And we have a number of programs--USAID, which I think the 
congressman referred to earlier, our State Department itself 
works in many of these areas. So I guess I would characterize 
that almost as a generational effort to make a difference.
    Mr. Pitts. Thank you very much. Thank you, Mr. Chairman.
    Mr. Smith. Commissioner Hultgren.

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Thank you so much. Thank you for being here 
today and your work.
    Couple questions, I know recently the U.S. has been pulling 
troops out of Afghanistan and Iraq. I wonder what does this 
mean for foreign fighters coming to or from this region. With 
the lessening U.S. military presence, can the number of foreign 
fighters be expected to increase in these areas?
    Sec. Rosenblum. So I had a fairly brief reference in my 
testimony to Afghanistan and the appearance of ISIL there. And 
I would say, first of all, that to the extent that we 
understand what's happening there now is that former Taliban 
forces are essentially rebranding themselves as ISIL, whether 
in order to get more funding or in order to get support from 
outside. And the estimates of the numbers vary quite a bit. 
It's not clear how big of a phenomenon it is.
    But we also--what we don't see, in the case of ISIL 
appearing in Afghanistan, is it being a foreign fighter issue. 
That is, it's not coming about because of an influx of people 
coming from outside. Very frankly, the magnet for the foreign 
fighters today is Syria and Iraq. It's not Afghanistan. So it's 
sort of a homegrown issue within Afghanistan. There's a broader 
issue of security in Afghanistan, which I'm not the expert on 
and can't really speak to in detail today, but I don't think 
that we've been able to draw a connection between the 
appearance of ISIL in Afghanistan and our drawdown. So----
    Mr. Hultgren. Let me go back to this idea of the magnet of 
Syria drawing these people and get more focused on Central 
Asia. With the Central Asian countries, are they effective in 
preventing Syria-bound violent extremists from exiting their 
borders? If not, how can the United States be helpful to assist 
or exert pressure on them in a way that will diminish the flow 
of foreign fighters into these regions?
    Sec. Rosenblum. So it's a good question. I think that the 
countries themselves are making efforts and trying to deal with 
a relatively new challenge. And I think they would acknowledge 
themselves--although they should really speak for themselves--
that they can be more effective, that they need to improve. And 
that's why, for example, they're participating in these global 
meetings that we're helping to convene to learn from others, to 
learn how it's done and also to improve information sharing.
    So there's a number of things that we are doing and can do 
more of that relate to helping them to be more effective. One 
thing that we encourage all the governments of Central Asia to 
do is to approach the issue in a comprehensive way that doesn't 
just involve law enforcement, as important as that is, but also 
involves civil society, religious groups, private 
organizations. The response needs to deal with issues that 
belong to law enforcement and security, like sharing 
information about passengers who are traveling, traveler 
screening, border security, things like that, but that it also 
needs to address the root causes, the stuff we were talking 
about a minute ago, the local, community-level issues.
    And so we've offered our support. Ultimately they recognize 
that they need--they're going to need to step up themselves. 
But there are a number of ways in which our assistance 
programs, through these conferences where people can exchange 
information and ideas, and through belonging to a more global 
network, that they can become more effective.
    Mr. Hultgren. One last question, and I apologize if you've 
already covered this, I've got a couple different meetings 
going on at the same time so I missed a good part of your 
testimony and I apologize for that--but I know according to a 
report the lure of the Islamic State for Central Asians--there 
was a report by Radio Free Europe, Radio Liberty--that said 
marginalized people, especially entire families in the Central 
Asia area, are joining ISIL because they believe it to be a 
better option for their families than the dismal economic 
prospects, restrictive governments and oppressive social 
circumstances of their home countries.
    I wonder, do you agree with that assessment of the reason 
why--for ISIL's allure, especially for entire families? And if 
so, what kind of approach, comprehensive or otherwise, that the 
U.S. and its allies and partners and organizations such as OSCE 
offer to help diminish the sort of allure towards ISIL from 
Central Asian countries?
    Sec. Rosenblum. Congressman, this goes back to the 
discussion about the motivations and what makes people join. 
And as I said earlier, there's a complex mix of motivations or 
potential motivations that people look at. Because of the 
nature of the conflict in Syria, and because the recruitment 
obviously happens in a sort of clandestine way, it's very hard 
for us--it's rare to get the chance, for example, to interview 
someone and ask them the question.
    There are some returnees, and so there's a handful of 
people--I mean, returnees--who have gotten disillusioned with 
their membership in these extremist groups. But there aren't 
many opportunities to ask people why they join these groups. So 
clearly the economic circumstances or other frustrations people 
feel could be a factor in some cases. And in terms of what we 
can do to address it, or the governments of the region can do 
to address it, it's really about providing economic 
opportunity. But again, even if we did that, it's not clear 
that that's going address the problem.
    And just one last data point to throw on the table as we 
think about these matters: If you look at the numbers--and as 
you know, my focus is only Central Asia, not the whole world--
but if you look around the world at where the foreign fighters 
are coming from to join ISIL, I've been told that probably 
about 20 percent are coming from Western countries--from 
Europe, the United States and other places. So it becomes 
harder to say that economic circumstances must be the main 
cause, when you look at the origin of other people.
    Mr. Hultgren. Right. I've talked with some other European 
countries, like Sweden, and very concerned of what's happening 
there. And again, these are very affluent communities with 
strong social structures. And yet, people are still choosing to 
leave to go fight. So this is complex and deep.
    Mr. Chairman, can I ask one last question, is that all 
right? I'm sorry. You just sparked another question I had where 
you mentioned some are returning because they're disillusioned 
and going back to their home country because it wasn't what 
they expected it to be. My guess is some are returning and 
haven't been disillusioned yet. They're returning maybe because 
they were injured or they're just coming back home for a while. 
What kind of potential instability in those countries might we 
see or are we already seeing? Or is there a threat to some of 
these existing countries and governments as fighters come back 
who still are committed to the cause?
    Sec. Rosenblum. Well, the issue of returning fighters from 
Syria is definitely of great concern to the countries of the 
region. And they are watching very closely when these people 
come back. We don't know of any cases or evidence yet of 
attacks originating from those returned people. But it's 
something that obviously the countries of the region first and 
foremost will look at very closely. And we, to the extent that 
we can be helpful to them in that, we stand ready to do so.
    Mr. Hultgren. Well, thank you very much for your testimony. 
Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Just if I could ask one final question, Mr. 
Secretary. Again, paralleling with what Mr. Pitts was talking 
about with regard to the radical Islamic allure, the magnet, if 
you will. When Boko Haram was emerging as a clear and 
compelling threat, I held four hearings in my Subcommittee on 
Human Rights, Africa and Global Health. Assistant Secretary 
Johnnie Carson testified and said that they're just unhappy 
with the infrastructure in the northern counties that were 
under assault, not enough roads and bridges. And to which I 
said, well, so they can blow them up?
    There seemed to have been a Boko Haram misperception about 
what the core radical Islamic belief really was causing these 
individuals to do. And again, we're now at the 14th month of 
the Chibok girls having been kidnapped, and so many others 
since. I've actually met some of the ones who escaped when I 
was in Jos and Abuja on two trips to Nigeria. My question 
really goes to do we really understand the importance that the 
imams play?
    In Bosnia, we've had a great grand mufti, and I'm good 
personal friends with him--Reis Ceric, and we're coming up to 
the 20th anniversary of the slaughter--the genocide in 
Srebrenica. And he has been eloquent in his defense of human 
rights, but also strictly adhering to his deeply held 
convictions about his faith, but rejects radical Islam. General 
al-Sisi--President al-Sisi in Egypt gave a powerful statement 
on January 1st to a group of clerics about the need for a 
reformation.
    And I'm wondering in the Central Asian countries, you did 
mention that religious believers--leaders are included--how 
much emphasis are we putting on bringing the imams in to speak 
out, to talk to those who attend their mosque? Sometimes it 
makes them a target. I'll never forget in Jos I met with the 
Archbishop Kaigama and the grand imam there. He said that when 
certain clerics speak out, the next day they're murdered by 
Boko Haram.
    So there's a huge risk. But it would seem to me that in the 
Central Asian countries that risk would be far less and could 
have a preventive effect if they were to be very robust in 
their stressing of the importance of the tenets of their faith, 
but it doesn't include radical Islamic and murder and mass 
atrocities. Are they really being brought into the fold in 
Central Asia?
    Sec. Rosenblum. Mr. Chairman, it's a very good point. And 
it is something that we emphasize strongly in our engagement. 
We also talk about civil society organizations and private 
organizations. But I think there's an especial emphasis in our 
recommendations and also events that we organize, on religious 
leaders being involved, for exactly the reason that you cited. 
I mentioned earlier in passing, and I'll just repeat it again 
because I thought it was such an interesting example of how 
this can work, that our embassy grants program in Bishkek, 
Kyrgyzstan is supporting workshops for imams on conflict 
resolution.
    And there was an event that was just held two days ago 
where the deputy mufti of Kyrgyzstan, together with the head of 
the counterterrorism department under the Ministry of Internal 
Affairs, led a training that was organized by an NGO, actually, 
called The Foundation for Tolerance International. The focus of 
this was on giving imams training in mediation and negotiation 
in factors conducive to the spread of violent extremism. So, 
sensitizing them, but also getting them involved in the 
preventive aspect.
    Mr. Smith. That's great. Thank you.
    Sec. Rosenblum. That's the sort of thing, I think, that's a 
good initiative--
    Mr. Smith. Thank you. We look forward to working with you. 
Thank you so very, very much for your testimony, for your 
expertise and for your leadership. We deeply appreciate it.
    Sec. Rosenblum. Thank you.
    Mr. Smith. I'd like to now welcome our second panel to the 
witness table, beginning first with Frank Cilluffo, who is the 
vice president of the George Washington University. Mr. 
Cilluffo directs the Center for Cyber and Homeland Security, is 
co-director of the George Washington University Cyber Center 
for National and Economic Security. Before his university 
appointment he served as special assistant to George W. Bush's 
Department of Homeland Security. As a matter of fact, he was 
principle adviser to Governor Tom Ridge and directed the 
president's advisory council for homeland security.
    He is routinely called upon to advise senior officials in 
the executive branch, U.S. armed services, state and local 
governments on an array of national homeland security and 
strategy policy matters. He frequently briefs congressional 
committees and their staffs. And he has testified before 
Congress over 25 times at high-profile hearings on 
counterterrorism, cyber threats, security--I guess this is 26--
and deterrence, weapons proliferation, organized crime, 
intelligence and threat assessment, border and transportation 
security and emergency management.
    Similarly, he works with U.S. allies and organizations such 
as NATO and Europol. He has presented at a number of bilateral 
and multilateral summits on cyber security and countering 
Islamic terrorism, including the U.N. Security Council. Without 
objection, your full resume will be made part of the record.
    And then secondly we'll hear from Jennifer Leonard, who 
joined the Crisis Group's Washington office in June of 2002. As 
Washington advocacy director, she works across the spectrum of 
Washington's foreign policy actors, including the 
administration, Congress, media, think tanks and NGOs to design 
and implement strategies that impact the process of policy. 
She's also the primary responsibility in advocacy for the 
Crisis Group's Central Asia, Southeast Asia, Northeast Asia and 
the Caucasus projects.
    Jen came to the Crisis Group after three years with the 
U.S. Department of Energy, where she worked for the assistant 
secretary for nuclear nonproliferation, then a special 
assistant to the administrator of the National Nuclear Security 
Administration. At the Department of Energy, she oversaw 
aspects of a new nonproliferation initiative, helped establish 
the Russia task force, international organizations and foreign 
governments on national security matters. She received her M.A. 
from the Fletcher School of Law and Diplomacy and B.A. from 
Connecticut College.
    Two very highly credentialed experts and we welcome you to 
the Commission. Please begin if you would, Frank.

   FRANK J. CILLUFFO, ASSOCIATE VICE PRESIDENT AND DIRECTOR, 
 CENTER FOR CYBER AND HOMELAND SECURITY, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Mr. Cilluffo. Chairman Smith, Commissioner Pitts, thank you 
for the opportunity to testify before you today. As you can 
probably already surmise, I've never had an unspoken thought, 
but I will try to be brief and summarize my comments and 
hopefully submit the complete testimony.
    Mr. Smith. Without objection your full statement and 
anything you want to attach to it will be made a part of the 
record.
    Mr. Cilluffo. Terrific, thank you. And I also thank you for 
your leadership in examining this challenge. It is an important 
issue because the threat not only affects U.S. interests at 
home and abroad, but also to our allies and it is pressing. At 
the same time, we can't go it alone, and I think that's 
emblematic of the Helsinki Commission's overall mission. This 
threat spans borders, to include cyberspace in some of the 
discussions that were brought up earlier, and will demand 
international cooperation and transnational solutions.
    The foreign fighter challenge is a matter of serious 
concern for the U.S. and our allies. While the foreign fighter 
phenomena is nothing new, its present scale and scope is 
unprecedented. By comparison--and Mr. Pitts, I think you 
brought this up in one of your questions--questions earlier, 
whether or not it's a religious duty. That was first 
popularized during the first Afghan-Soviet war in the 1970s, 
when Abdullah Azzam made that argument in that case. At that 
time, which was a very significant yet, you had about 5,000 
Muslims from around the world join up the banner to fight the 
Soviets. You've had similar scenarios in terms of Chechnya, in 
terms of their war in the Balkans and in Bosnia, and then again 
of course in the FATA region more recently. But those numbers 
are dwarfed compared to what we're seeing today.
    So during the Soviet-Afghan war, you had 5,000 foreign 
fighters. That was over a decade of fighting. Here you've seen 
over 20,000, up to 25,000, and we're still early, 
unfortunately, in the situation in terms of what we're 
addressing here. So scale and scope you really can't compare. 
When you look at the foreign fighter phenomena today in Syria 
and Iraq, you're talking 90 different countries. You're talking 
thousands of Westerners, including up to 150 Americans who have 
either attempted to travel or successfully did travel to fight 
alongside ISIL.
    It's also worth noting that just this past April there was 
a big arrest in the United States: four Brooklyn men, including 
an Uzbek American who radicalized three other Americans from 
Central Asia to go fight alongside ISIS or ISIL. The good news 
is obviously we were able to prevent that before they were 
successful. But I think it's a harbinger and an indicator of 
what we're dealing with here.
    And I think it's also worth noting that terrorism is a 
small numbers business. You don't need big numbers from a 
national security standpoint. This is why I think these numbers 
are so significant. It's not just that you can put X number of 
thousands behind it, but unfortunately it only takes small 
numbers to cause mass harm.
    And I've been meeting with the security services of all our 
allied countries recently, and quite honestly they're 
overwhelmed. They can't keep up with the flow, both in terms of 
people attempting to travel and also returnees. There have been 
quite a few returnees. And actually, I would disagree with the 
previous witness in one little incident. There have been some 
incidents, including in France, an attack on a synagogue, in 
terms of someone who had fought overseas in Syria and Iraq. So 
I think that there's enough there to be aware of in terms of 
what we need to be worrying about.
    The phenomena itself I think is becoming difficult to 
detect. Obviously you want to get there left of boom, before an 
incident occurs, and that requires enhanced law enforcement 
capabilities as well as intelligence cooperation. That's where 
transnational solutions come in and are so important. And I 
think from a U.S. perspective, and the same for the Stans or 
for the region in Central Asia, all real solutions here are 
going to be local at the end of the day. They're the ones 
closest to the action, they're the ones who know their 
communities, and they're the ones who are ultimately going to 
either detect and/or prevent or respond to an incident. So I 
think that has to be part of our solution set.
    There's been some discussion in terms of Afghanistan, and I 
think this is a dilemma and I think it's a significant 
challenge to U.S. interest. This conflict zone, as well as 
others such as the Maghreb and the Sahel--you've had a number 
of Americans fight alongside Al-Shabaab in Somalia and 
alongside al-Qaida in the Arabian Peninsula in Yemen. You've 
had French fighters fighting alongside Ansar al-Dine in Mali. 
So the Maghreb and the Sahel have been front and center for a 
while.
     Afghanistan was not only as we discussed earlier the first 
major situation in terms of foreign fighters, but you are 
starting to see that undergoverned space be filled and that 
vacuum be filled, whether it's for fundraising purposes or 
whether it's for training in terms of conflating different 
organizations. So in addition to the ISIL direct threat, 
another concern is they're interacting with other foreign 
terrorist organizations. Some of those organizations have 
stronger international reach and capability, which obviously 
from a homeland perspective poses a high threat perspective. So 
that is a concern when they come back to Afghanistan, and I 
think the reason you saw the numbers drop in recent years in 
terms of foreign fighters going into Afghanistan was because of 
the pressure we were asserting then. I'd rather them look over 
their shoulder than have the time and space to maneuver, to 
plan, train, and ultimately execute attacks. And when our 
presence is diminished, that vacuum will be filled. And nature 
abhors a vacuum, and unfortunately I think a lot of bad actors 
will do that.
    In terms of Central Asia itself, you heard the numbers: 
2,000 to 4,000. I think that's, again, early stages. I am quite 
concerned about Colonel Khalimov's defection. I think that one 
of the key indicators, if you look at any foreign fighter flow 
historically, is what I refer to as bridge figures. These are 
people who have feet in both communities. Think Anwar al-Awlaki 
in terms of the role that he played to get Americans to fight 
alongside AQAP; or Eric Breininger, who was a German who 
brought over thousands of people to fight alongside the IJU in 
the FATA region. These bridge figures are important, and I do 
think that his role in terms of serving as a communicator to 
spread propaganda should not be underestimated. Not only does 
he have operational capability, he's got street creds with the 
folks he's trying to influence.
    It also recognizes the fact that, unfortunately, to 
paraphrase Bill Clinton, in this case it's not ``the economy, 
stupid,'' but it is the ideology. And we need to do more to 
expose, unpack, undermine and hit back at the Islamist 
ideology. I think that's been our greatest missing tool in our 
counterterrorism toolkit and statecraft since 
9/11, and something we ought to be doing an awful lot more to 
be able to combat their lifeblood, to be blunt.
    Operationally, obviously we're doing a lot with our Five 
Eyes partners, and that should still be the number one 
relationship the U.S. has in terms of counterterrorism. But 
we're seeing that expand to our transatlantic partners in 
Europe, and obviously we need to expand that even beyond into 
the region.
    In terms of working directly with the countries of Central 
Asia, I really do feel there's more that can be done in terms 
of border security. It had come up in the previous panel, 
questioning whether or not Turkey's doing all that they can do. 
The reality is, is bluntly speaking, they're not. And there's 
an awful lot more we should be able to do, which will in turn 
help the countries in the region of Central Asia get their arms 
around this issue. And there's no travel restrictions between 
Central Asian countries and Turkey, so maybe we ought to be 
looking to that as well.
    So a long-winded way of saying that the threat that we're 
facing today obviously has implications to the region, but 
that's one part of a much broader set of issues that I think 
does directly impact U.S. national security. So thank you, sir.
    Mr. Pitts. The Chair thanks the gentleman.
    Ms. Leonard, you're recognized for your statement.

 JENNIFER LEONARD, DEPUTY DIRECTOR, INTERNATIONAL CRISIS GROUP

    Ms. Leonard. Well, thank you very much, Congressman Pitts, 
for inviting us to present our findings and research before the 
Helsinki Commission. We appreciate the Commission's sustained 
attention to the region over these long years. It's been going 
on for a while. We have appeared before the Commission before, 
and we appreciate today's opportunity.
    International Crisis Group is an international conflict 
prevention organization, and our approach is grounded in field 
research that we conduct. We've got teams of political analysts 
who are based in or near countries vulnerable to violent 
conflict, and based on that research and analysis we try to 
come up with prescriptions to prevent and resolve it. And we've 
covered Central Asia for over 15 years. Right now, our current 
base is in Bishkek, and we conduct frequent visits throughout 
the region exploring the challenges and opportunities facing 
Central Asia, with a particular focus on the interplay of 
democratic repression, the threat of radicalization, and the 
decay and decline of the economy as well as infrastructure over 
the years.
    And in January of this year, we published ``Syria Calling: 
Radicalisation in Central Asia,'' a copy of which I'd like to 
submit for the record. \1\ But it addresses the very topic that 
we're here to discuss. And over the course of the research that 
we conducted over last fall and preserved in the report, indeed 
we see--and I don't think anyone here debates--that Islamic 
State is attracting a coalition of Central Asian jihadis and 
sympathizers, and it's fostering a network of links within the 
region. Now, it's prompted in part by the political 
marginalization and the bleak economic prospects that my fellow 
panelists have addressed, and it's beckoned roughly 2,000 to 
4,000 Central Asian citizens so far.
---------------------------------------------------------------------------
    \1\  http://www.crisisgroup.org/en/regions/asia/central-asia/b072-
syria-calling-radicalisation-in-central-asia.aspx
---------------------------------------------------------------------------
    And while the phenomenon has a disproportionate impact on 
security perceptions at home, the region supplies only a small 
fraction of the IS fighters in Syria. But if enough of them 
return, it does present a serious risk to regional security and 
stability, which--yes--presents a complex problem to each of 
the five Central Asian governments, which each suffer from 
their own brand of political repression, poverty, corruption, 
and all of them have really struggled over the years to 
accommodate space for expression of conscience, religious 
freedom, and the religious organizations that would be involved 
in that expression. Meantime, the belief that Syrian-trained 
jihadis plan to establish a caliphate in the region has shaped 
the security debate and the response in each. That's created an 
increased use of surveillance, harassment and detentions, and 
provided additional justification for ever-stricter laws on 
religious practice and expression that, in fact, may be 
counterproductive.
    So against that backdrop, you've got the call of IS, which 
says not only does it want fighters but it wants facilitators. 
They want nurses, engineers, teachers to support the effort. 
And that can appear to offer an attractive alternative for 
those who are feeling alienated, discriminated, marginalized, 
et cetera, and who find some inspiration in the belief that the 
Islamic State is a meaningful alternative to the challenges of 
their post-Soviet life.
    I'd like to talk about the profile because I think our take 
on this differs a little bit from what we've heard. I think 
Commissioner Cohen alluded to the sort of young, 
disenfranchised male. In fact, there is no single one-size-
fits-all profile for IS supporters in Central Asia. We're 
seeing rich, poor, young, old, men, women, educated, non-
educated. We've talked to 17-year-old hairdressers, established 
businessmen, women who've been basically abandoned by husbands 
who, yes, have pursued migrant opportunities in Russia, and 
they've started another family and left their first one behind. 
There are families who believe their children have better 
prospects in a caliphate.
    The largest single group are Uzbeks, both citizens of 
Uzbekistan and ethnic Uzbeks from the region--notably, the 
Fergana Valley and the city of Osh, which is in Kyrgyzstan. And 
the risk has amplified since violence claimed the lives of 
about 400 ethnic Uzbeks back in 2010. That has gone unaccounted 
for. Meanwhile, Tashkent puts their number at about 500. We 
think that's conservative. The number may go up to about 2,500 
of their citizens.
    In northern Kyrgyzstan, there may be up to 300 cases 
unreported of recruitment.
    In Kazakhstan, IS supporters tend to come from the west and 
south, but that's not exclusive. And about 150 made headlines 
in fall of 2013 when they appeared in a YouTube video that 
surfaced.
    And then, of course, there's Tajikistan and the alarming 
revelations of this recent defection, which has rattled the 
regime and the region. Clearly, you can hear from our own 
discussion that the U.S. government is seized with it and 
wondering how did somebody who darkened West Point's doorstep 
end up where he is today.
    In terms of how the recruitment of these individuals 
occurs, it's happening at local levels. It's happening by word 
of mouth. Some are recruited at home in mosques and prayer 
groups, others abroad. We discussed the vulnerability of 
migrant workers. And the Internet and social media do play a 
critical role, but it's not a decisive or definitive one.
    Groups that the Commission is familiar with, and in 
particular Hizb ut-Tahrir, play a peripheral role insofar as 
they--the folks who gravitate towards them could be radicalized 
to a degree, but these groups don't yet appear to be directly 
involved in recruiting to Syria. But they may be an unwitting 
waystation on the way to that fight.
    More worrying for the regional security climate is where 
IMU--the Islamic Movement of Uzbekistan--and its offshoots fit 
into this picture. Up until earlier this year they'd sort of 
kept a respective distance, but in March IMU released a sort of 
IS-style beheading video shot in Afghanistan in which they 
declared their allegiance and support to IS.
    So in terms of the motivations, we talked about the 
economic disenfranchisement and the lack of opportunities. 
Indeed, economic reward is not a motivation here. Rather, it's 
the idea of a holy struggle to advance Islam. And people who 
are frustrated, excluded, who would not have considered 
fighting with the longer-established IMU, some of these outfits 
that have been around in the area longer, they're perceiving IS 
as the creator of a novel political order, something--the call 
of the IS caliphate is more compelling. And an imam from 
southern Kyrgyzstan told us in an interview, in comparing Syria 
to Afghanistan, that Syria is about principles, Afghanistan was 
about colonialism. So there's something that's resonating now 
along those lines.
    One group that we haven't talked about here is women, and 
indeed we are concerned about the radicalization of women. The 
traditional and state-approved Muslim community's sort of 
disinterest in the role of women in society allows underground 
groups to fill a need. Radical Islam gives them some framework 
to distance--for women to distance themselves from marital or 
family frameworks that they feel frustrated by. For other 
women, it's the call of a devout life for them, perhaps for 
their children. And still others are following fighters or 
family members that have already sort of tread the path and 
have a network of contacts in Turkey and IS territory.
    Now, while the numbers of Central Asians who've received 
active combat training and might yet be rising through the 
ranks is increasing, so far the danger is something to be 
prepared for rather than presenting some immediate threat. But 
for the time being, then, Central Asia is fortunate that Syria 
is a long way away, the problem's in its infancy, no major 
attacks have yet occurred back in their neighborhood--well, 
actually I should also say that a point that hasn't yet been 
made is that many, in fact, may not return because they may 
very well perish in Syria.
    But in the meantime, and keenly aware of the dangers that 
the return of these fighters could pose, beyond criminalizing 
their participation abroad, the Central Asian governments have 
done very little to address the reasons why the draw exists in 
the first place for their citizens, nor have they contemplated 
how that dynamic might relate to broader unmet societal 
demands. The prevention of extremism and the rehabilitation of 
jihadis are just not high on the agenda, and female 
radicalization in particular is not at all discussed.
    These dynamics risk gathering pace and purpose. They risk 
blindsiding the governments that are ill-prepared to respond to 
such a complex security threat. ``Complex'' is a term that we 
keep throwing around, but indeed it is. And these are 
governments that may well, in the current day, be tempted to 
exploit the situation to crack down further on dissent--not 
just dissent expressed through a more radical religious means, 
but generally speaking. These governments need to assess 
accurately the long-term danger that jihadism poses to the 
region and take effective preventive action now. That doesn't 
mean labeling everyone who is interested in an unfamiliar 
interpretation of Islam as an extremist, adopting increasingly 
severe laws to limit freedom of conscience and association, or 
promoting intrusive security practices. Rather, effective 
prevention means responding to an unmet demand for increased 
democratic space, revising discriminatory laws and practices, 
implementing outreach programs--we talked about creating jobs, 
ensuring better coordination between security services and 
tackling police reform. And on the most basic level tackling 
police reform needs to start with the basic matter of how 
they're perceived by the communities that they serve.
    For its part, the U.S. and regional partners should 
recognize that Central Asia is a growing source of foreign 
fighters, and we need to be prioritizing police reform and a 
more tolerant attitude towards religion in our bilateral 
engagements and programming in the region. We heard some 
promising references from Secretary Rosenblum, but clearly more 
can be done. There are lessons to be gleaned from other 
countries--from Denmark, from Indonesia--about how they've 
addressed some of these issues. But the capacity of the Central 
Asian governments to absorb and implement these lessons are 
undermined by not only weak state institutions, but a profound 
lack of political will.
    And with that, I'll stop. Thank you.
    Mr. Pitts. The Chair thanks the gentlelady. Thank you both 
for excellent testimony.
    I'll begin the questioning, and like to start where I ask 
the secretary about the idea of motivation, not economic but 
religious. And you mentioned Islamic ideology. You mentioned 
religious duty and the caliphate. Could you drill down a little 
bit? Are there Islamic scholars who teach that, since there is 
a caliphate, they have a duty to go there and defend the 
caliphate? Explain how serious that religious motivation, you 
think, is. We'll start with you, Mr. Cilluffo.
    Mr. Cilluffo. Thank you, Mr. Chairman. Obviously, that's a 
complex question, but--and I'm not going to zero right in on 
Central Asia specifically, but looking more broadly.
    I touched on what I referred to as bridge figures. These 
are individuals who have played a significant role in 
radicalizing and ultimately recruiting individuals to fight 
alongside foreign terrorist organizations. You cannot 
underestimate the significant role that Anwar al-Awlaki played, 
for example, in recruiting Americans to join up with AQAP in 
Yemen or to stay at home, given the fact that they had 
recognized that the authorities may be on to them, and they 
become a homegrown violent Islamist extremist threat. So the 
bridge figure role.
    And that's why I think the colonel's defection is so 
significant here. This is someone kids would look up to. This 
is someone who, if you think back to even gangs, think back to 
the role that Tookie Williams played, for example, a big gang-
banger. Ultimately, he had more effect in renouncing the gang 
lifestyle to others than anyone else could. So this is a big 
coup in terms of defector if you think from intelligence 
perspectives.
    And I think his message is important, and if it's OK I'll 
quote quickly what he said because it was dressed in religious 
garb, but at the end of the day his message was also trying to 
resonate from an economic perspective. And his note was this: 
``Going out to work every morning, look at yourself in the 
mirror and ask yourself: Are you ready to die for the state or 
not?'' He was clearly speaking directly to his colleagues in 
the Tajik services and others who could be potentially 
susceptible to this message. He went on to say ``I am ready to 
die for the caliphate. Are you?'' So there's clearly a 
religious underpinning, but it's also tapping into obviously a 
much broader message as well.
    There are imams who have spoken out against, obviously, 
jihad and violent jihad and terrorist activity. But there are 
also many that have not. And at the end of the day, there are 
people turning to the Internet--I don't mean to be pejorative 
here, but Sheikh Google, call it that. Anyone who's got the 
loudest voice is going to get a lot of the followers, and these 
videos are resonating with a number of folks.
    Now, I think the role social media plays with Western 
foreign fighters is absolutely critical. I think it probably 
has less of a significant impact in terms of Central Asia. But 
don't underestimate that particular set of issues.
    Everyone's going to disagree with me on this point in this 
room. It's not only about what we're doing good in the world. 
We need to think of it as negative political campaigning. We've 
got to tear down the enemy. We have to expose the hypocrisy, 
expose the lies, and facilitate it falling under its own 
weight. Why? Because it's ideologically bankrupt. And ideally, 
that wouldn't be with our fingerprints on it. Obviously, it 
should come from the communities themselves. But we've had a 
hard time recognizing this as a principal tenet of our 
response, and until we do we're always going to be playing 
defense. We're always going to be reacting because it's the 
ideology, it's the underpinning of the overall message. So I'm 
sure that there are very different views on that in this room, 
including possibly on this panel, but those are my thoughts.
    Mr. Pitts. Thank you. Ms. Leonard, if you could respond to 
that. And you mentioned principles versus colonization, if you 
can drill down a little bit more.
    Ms. Leonard. Well, maybe before I do I wanted to make a 
point that we're talking about push versus pull, to a certain 
degree. So are these individuals who feel so marginalized, 
disenfranchised, discriminated against that they have no 
options or feel their options are so little where they 
currently reside that they're pushed from their home country 
towards something grand? Or is the pull of the caliphate what's 
bringing them? I think in most cases it's not an either/or, 
it's a combination. And so we need to work to address both of 
those dynamics.
    Now, in terms of sort of bringing it more local and 
understanding what the religious dynamics or the religious base 
that currently exists in each country--and each country is 
different--and we have to be truthful, and for a variety of 
reasons known very well by the panel varying degrees of access 
to each of these countries too. But historically the state-
sanctioned imams are not as versed and as educated, and 
therefore as capable of countering that narrative, that lure. 
And to the degree that programs can enhance their understanding 
and their capacity and their ability to counter that narrative, 
it's a good thing. But they're operating in a space, too, where 
they are state-sanctioned. So the state itself needs to arrive 
at a level of comfort where that space can be provided and take 
some of the pressure off of the situation, and that in nearly 
every case runs counter to how these regimes approach 
governance.
    Mr. Pitts. You mentioned the profiling. We've had a large 
discussion about fighters from Central Asia, but can you 
possibly highlight distinctions between fighters from this 
region and those coming from Europe or elsewhere? Are there 
differences in motivations? Are there differences in lethalness 
or, in combat experience?
    Ms. Leonard. My comparative frame of reference--this isn't 
my expertise; we're sort of based in or near conflict zones, 
and we've done a lot of work historically in the Balkans but 
haven't taken a really close look at this. So I'm really not in 
a position to speak with any expertise on this.
    Mr. Pitts. OK. Mr. Cilluffo, you want to speak to that?
    Mr. Cilluffo. Unfortunately, there's not a single, easy 
answer, a profile that comes in different shapes, sizes and 
forms, and different people are being--whether actively or 
susceptible to that message. So when you look at the U.S., for 
example, one of the things we saw that was very interesting 
when we were following some of the foreign fighter flows to 
Yemen and Somalia, the Brits were, in particular, they always 
had a significant foreign fighter issue vis-a-vis Pakistan, 
given the strong community in the U.K. Overnight, they were 
seeing, though, that a lot of these first/second generation of 
Southeast Asian origin fighters moving to Somalia and Yemen. 
And the answer that the security service would give you is they 
were coming back with the same street creds; in other words, 
they knew that the likelihood of them getting picked up was a 
lot higher traveling to Pakistan, but less so when traveling to 
North Africa. So I think we are seeing a different pattern and 
demographic.
    And the one thing I would note here is, we first did our 
first major study on foreign fighters about five years ago, and 
I get back to the fact that terrorism is a small numbers 
business. In this case, it was an individual by the name of 
Najibullah Zazi. This was a naturalized citizen who was 
traveling to Afghanistan. His his intent was to join up with 
the Taliban. He was intercepted by al-Qaida, turned back 
around, and said you are of much greater value to attack the 
homeland. He had the ability to travel. He understood the 
region. And this was one of those cases since 
9/11 where our system was really blinking red. Luckily, we got 
there before the bombs went off, and his attempt was multiple 
suicide/homicide bombings in the New York subway. We were able 
to prevent that, but that was pretty far along in the planning 
phase. And then if you look at another case in the United 
States, Faisal Shahzad, the so-called Times Square bomber, he 
too initially had intentions to go overseas and was turned back 
around.
    So I just caution that you don't need huge numbers. And 
that's what makes this so difficult, because we can't--and when 
you're talking 25,000, when you're hearing some of the security 
services in Europe saying they are absolutely overwhelmed, they 
don't have the bodies, they don't have the capability, that's 
why transnational solutions I think right now are so important. 
And I think anything the Commission can do to keep Turkey's 
feet to the fire in terms of policing the border would be well-
received because that's where most of these guys are still 
slipping through.
    If you look back to the FATA region and foreign fighters in 
the past, it was pretty hard to get to the FATA. To get to 
Syria, it's a bus ticket, a train ticket, or a plane ticket 
away, and you can easily slip across the border. And there were 
probably about 18 months there where all security services were 
not aware of the significant growth of this phenomenon, so 
those numbers, who knows where they are and whether or not 
they've come back.
    Mr. Pitts. Thank you. Recognize the Chairman, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Pitts.
    Let me thank you for your testimony. I did read it. I was 
on the floor, regrettably, and missed most of the oral 
presentations. But let me just ask you a couple of questions.
    In the Middle East, we know that anti-Semitism is used very 
effectively to radicalize communities in country after country. 
More moderate Muslims are ostracized/marginalized if they don't 
toe the line on being virulently anti-Semitic. And I'm 
wondering what impact anti-Semitism in an overarching way is 
having on the Central Asian countries. If you could--and maybe 
you don't want to, but if you could, how would you rate each 
country? What might be the best: Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan and Uzbekistan? How would you say--
who's doing the most? Which country is the laggard, or 
countries?
    Your comments, Ms. Leonard, on motivations--I couldn't 
agree more. And I sometimes think that is missed, which is why 
I asked Secretary Rosenblum about that, whether or not there is 
an appreciation for how that motivation is what drives this, 
because they missed it on Boko Haram. I'll give you an example. 
For almost three years I tried to get the administration to 
designate Boko Haram an FTO, a foreign terrorist organization--
number of hearings, dialogue after dialogue, finally put in a 
bill to do so. The day we were going to mark up the bill, they 
announced it was an FTO. We had missed two and a half, almost 
three years in not so designating it because it was just a 
bunch of ruffians who were blowing up bridges and killing 
people rather than driven by an ideology. So I think your point 
about the idea of holy struggle to advance Islam, the novel 
political order, universal purpose, creation of a caliphate, I 
think those words need to be said over and over again. So you 
got to understand the nature of, in this case, a metastasizing 
of cancer in order to combat it. And so I thank you for 
bringing focus to that.
    Because we do have to--and I did ask Secretary Rosenblum; 
if you could maybe, perhaps both of you, answer this--are we 
engaging the Islamic leadership well enough? I waited with 
bated breath to hear comments when al-Sisi made those famous 
comments on January 1st, and then a week later--I mean, that 
was bold. He was Sadat-like. And yet, it was like a dead 
silence here in the Capitol. We should have been embracing that 
in calling for that reformation and for Islam to heal itself 
from within. If you could speak to that.
    Human rights--Secretary Rosenblum thought there was not a 
nexus between what's happening in human rights--what your view 
is on that.
    With regards to Chechnya, the dictator there, Kadyrov, and 
Chechen authorities in general, as you know, have become 
increasingly aggressive and tinged with Salafist notions. I 
remember we held hearings, did resolutions, traveled to Moscow. 
We even had Elena Bonner twice testify at hearings that I 
chaired--Sakharov's wife--when the Chechen wars broke out. And 
now we're seeing this renewed--maybe it never went away--
radicalization occurring there. How does that figure into all 
of this? Because, as you all know, those fighters were 
absolutely bizarre in their extremism.
    And finally, if you could--let's see--again, whether or not 
the administration understands the core reasons why, I would 
note parenthetically that--and I held hearings on this as 
well--for half of President Obama's presidency, he did not have 
an ambassador-at-large for international religious freedom, did 
not name countries of particular concern. To me--and I held 
hearings on it and asked them why, never got a good answer--it 
was revelation of priorities. It was no priority. We passed 
legislation last year to establish a special envoy for Middle 
Eastern minority religions. That would include the Islamic 
groups--faiths that are marginalized themselves, including 
Coptic Christians and others. There's still nobody named as 
special envoy. We do have, thankfully, right now an excellent 
ambassador-at-large, David Saperstein, Rabbi Saperstein, but he 
came on late. He's trying to do his level best. But you know, 
if you miss the reason why these things are happening, your 
remedy's going to be far less effective and efficacious.
    So if you could speak to those things.
    Ms. Leonard. That's a long list.
    You had asked for a ranking. I'm going to sidestep the 
ranking, but I'm going to address it a different way and talk 
about the acute problem for Uzbeks. Now, we talk about Uzbek 
citizens and ethnic Uzbeks in Kyrgyzstan, and that's what we've 
seen as the ripest group.
    In Uzbekistan, it's a very repressive regime. There are all 
kinds of challenges, and those citizens have long demanded 
increased democratic space. We're no longer operating in 
Uzbekistan because of those same reasons. We were forced to 
leave the country, along with a lot of other NGOs, and that is 
a symptom of a very large and significant problem.
    In the meantime, right across the border, you've got the 
ethnic Uzbek minorities, a minority that has really suffered in 
Kyrgyzstan as a disenfranchised minority. I referred to the 
death of 400 of them in 2010. That's totally unresolved. These 
are completely marginalized. They don't feel safe. Even if 
there are whiffs of radical activity and you're a moderate 
ethnic Uzbek in Kyrgyzstan, the level of trust with the 
security services, you're not going to go because it invites 
increased surveillance, harassment, potential detention. And so 
we're flirting with it becoming a self-fulfilling prophecy. And 
so, for that reason, I sort of single out the plight of Uzbeks 
in particular.
    But that's not to say--I mean, as the alarming example of 
late in Tajikistan--that the problems aren't going to crop up. 
And if I use my colleague's term, this is a small numbers game. 
There are some really real threats. So I'll shift gears a bit 
on your request for a ranking and say as much.
    Now, in terms of the threat of return of foreign fighters, 
a point that I didn't make in my shorter comments is the 
criminalization that's happening--this is laws that have been 
introduced in each of the countries, et cetera, in various 
stages--Uzbekistan is actually one that has said--contained in 
the legislation is basically an amnesty in terms of, as long as 
you haven't actually done anything, we'll forgive you, just 
come to us. And there's an effort to rehabilitate. If you are 
that individual making that choice, the track record of that 
government doesn't sort of infuse any degree of trust in taking 
that leap toward ``I'm sorry, I've changed my mind, I want to 
walk back from it.'' And so the Uzbek government and the rest 
of them need to really think hard about how do we prevent that.
    Now, if you're a foreign fighter that wants to return home 
for whatever reason, our assessment is that you'd be more 
likely to probably find your way to Kyrgyzstan because 
Kazakhstan and Uzbekistan are going to treat you probably, on 
the relative scale of how you'll be treated in the 
neighborhood, more harshly. A zero-tolerance policy is what's 
likely to be anticipated. Kyrgyzstan, although there may be 
severe consequences and not a lot of faith in what the 
rehabilitation opportunities would look like, it might be a 
safer bet if you really feel compelled to return home.
    You asked about human rights and the causal relationship. 
It's a symptom of a larger problem. While there may not be 
absolute sort of research illustrating the direct relationship 
between human rights violations and radicalization, I think we 
can all agree that we're here today suggesting that it's a 
worrying trend. These are repressive regimes, with varying 
degrees of repression in each. But human rights is symptomatic 
of a larger problem and a lack of space. So, causal or not, 
definitively, I don't think it's a false road. I mean, it's a 
problem.
    Chechens, I think I'll take a pass on that.
    And whether or not the administration understands the core 
reason why. We've talked about Afghanistan. For about a decade, 
we've all talked about and--we've worked in Central Asia for 
over 15 years. The Commission has paid a lot of attention to 
the area. While the war was going on in Afghanistan and active, 
frankly, those national security priorities trumped the 
conversation that we're having today about the dynamics that 
have created this particular problem. So while we might have 
wanted to promote rule of law, governance, open democratic 
space, take some of the pressure off, attend to the very issues 
that we have identified as creating the environment where 
radicalization is happening, those were trumped by strategic 
and tactical priorities that flowed out of the operations in 
Afghanistan, and it was really hard to find some bandwidth. So 
here we are today having that conversation.
    Mr. Cilluffo. Mr. Chairman, I'll try to pick up and briefly 
touch on some of the excellent questions. By the way, that 
should be your Commission staff, if they could put together the 
answers to those questions I think they'll be very well focused 
for a year because those are excellent questions.
    Firstly, let me just make reference on your comment on 
anti-Semitism and all minority religious rights--Christian 
groups and others. They are oppressed. And you had mentioned 
Boko Haram examples in Nigeria, but you've seen the same play 
out in Iraq, obviously, as well as minority Muslim--Sufis in 
particular have a pretty hard time operating in the area.
    I'm also concerned about anti-Semitism, by the way, in 
Europe. If you notice the communications that are trying to 
resonate to the Islamists in the region, they do use that as 
part of that narrative.
    But I might try to tie a point that my colleague said 
eloquently, and that ties to some of the human rights issues. 
Whether it's causal or not I think misses some of the point. 
The reality is it is part of the message, the story. That story 
is resonating, and it really is about storytelling with a 
certain group of individuals. So real or perceived grievances 
is almost irrelevant. It's how it's packaged in that broader 
story, and the storyboard has different components along the 
way. And human rights will always be one of those issues, real 
or perceived, raised in that storyboard.
    One thing I'd note, especially as pertains to Western 
foreign fighters, it's not the message as much as it's the 
packaging around the message. It's an emotional call as much as 
it is a religious call. So it's in the trappings of religion, 
but it really is an emotional call. And we've been very 
uncomfortable unpacking that particular set of issues. So I 
think that is an area we can and should do more.
    So a long-winded way of saying anti-Semitism is a concern. 
So are the rights of Christians in the area and other Muslims.
    Mr. Smith. I want to thank both of you for your 
extraordinary insights, your leadership. And we benefit greatly 
from that, as does the, by extension, Congress, and I hope the 
executive branch as well.
    I do have to run to the floor. I have a speech I have to 
give, a colloquy. I might have missed it. I hope I haven't.
    But I want to thank you so very, very much. The hearing's 
adjourned.
    Whereupon, at 4:22 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to our witnesses and to everyone joining us this afternoon 
for this hearing on foreign fighters and the escalating threat of ISIS 
in Central Asia.
    A year ago today, the city of Mosul fell to Islamic State of Iraq 
and Syria, or ISIS, during a wave of violence that swept brutally 
through Northern Iraq. Many of those who took part in the offensive 
were foreign fighters--in fact, the UN Security Council recently 
estimated that there are now at least 25,000 foreign terrorist fighters 
from more than 100 countries who have travelled internationally to join 
or fight for terrorist entities associated with ISIS and Al-Qaida.
    According to the International Crisis Group, as many as 4,000 
foreign fighters come from the five countries of central Asia. Just 
last week, we learned that the chief of Tajikistan's counter-terrorism 
program--someone highly trained by our own government--abandoned his 
post to join ISIS.
    What does this say about the current efforts to stop terror-minded 
men and women from volunteering and traveling to the Middle East? 
Clearly, our government--working with others and with organizations 
like the OSCE--must take stronger action to combat radicalization 
beyond our borders, as well as to ensure that returning foreign 
fighters do not bring jihad and murder back home.
    Central Asian governments face major challenges here. Many of these 
derive from their history as part of the Soviet Union, from wars in 
nearby Afghanistan and from limited economic development, which has led 
millions of their citizens to seek employment abroad, especially in 
Russia. The discrimination and exploitation to which those workers are 
subjected, as well as the decline of the Russian economy and changes in 
the Russian visa regime, have reduced the remittances these workers can 
send home to support their families and may have contributed to 
creating the conditions that ISIS uses to recruit foreign fighters from 
among different Central Asian nationalities.
    Some of the challenges the central Asia governments face are of 
their own making--including widespread corruption, lack of rule of law, 
and their own human rights records. Turkmenistan and Uzbekistan have 
particularly terrible human rights records, among the worst in the 
world in respect of political prisoners and torture. All of these 
factors are exploited by ISIS recruiters and other organizations 
promoting radicalization and violent extremism.
    It should be the particular role of the United States to promote, 
to the central Asian governments, our conviction that ``fighting 
terrorism'' is no excuse for violating human rights or the rule of law.
    I look forward to hearing about the many issues here, including 
counteracting radicalization of potential foreign fighters, inhibiting 
the travel of recruits and volunteers to the Middle East, disrupting 
financial support to fighters and their families, and preventing their 
return to their home countries. This is in the first place the 
responsibility of the governments, and there is the question of what 
they are trying to do and how well they are doing it. There is the 
question of what our government and the OSCE is doing and can do 
better, working with the central Asian governments--here we need to 
talk about issues of document security, border security and law 
enforcement coordination. I hope we can touch on all of these aspects.

Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Thank you, Mr. Chairman, for your leadership and for calling a 
hearing on an incredibly important aspect of security for our country 
and for our partners in Central Asia and all across the entire OSCE 
region. I also want to welcome our witnesses, and I look forward to 
hearing their insights on how we can better address this threat.
    I am pleased to note that the United States has a strong record of 
promoting multilateral, multidimensional approaches to combatting the 
diverse challenges associated with the recruitment of terrorists, as 
outlined by Chairman Smith, stretching back over 10 years. Since 2003, 
following a proposal by the United States, OSCE countries have been 
focused on improving security standards for international travel 
documents as a means of thwarting easy cross-border movement of 
terrorists. Constraining terrorists' mobility continues to be a major 
security concern in the region, particularly regarding flows of foreign 
fighters from Central Asia. Over the past several years, the 
establishment and increased efficiency of migration networks has played 
a major role in ISIL's ability to recruit terrorists from abroad.
    Additionally, since 2004, OSCE participating States, again at the 
urging of the United States, have concentrated on the implementation of 
Financial Action Task Force recommendations regarding terrorist 
financing. Access to capital not only empowers military capacity of 
organizations such as ISIL, but also affords them the opportunity to 
finance travel expenses for foreign fighters. For many Central Asians, 
ISIL's appeal further rests on its supposed ability to offer greater 
access to educational opportunities, religious cohesion, and more 
stable social structures. If the United States and its partners wish to 
successfully extinguish the growing threat of these extremist 
organizations, then deliberate steps must be taken to dismantle its 
organizational structures.
    In addition to monitoring the dangers posed in Central Asia by the 
continued recruitment of foreign fighters to Afghanistan, Syria and 
other areas of the Middle East, the United States must remain vigilant 
in safeguarding its own security. Each individual recruited from 
Central Asia and other regions contributes to the growing influence of 
ISIL and the prevalence of violent extremism around the world.
    Over the past several years, thousands of men and women have 
abandoned their countries to join the ranks of ISIL. As Chairman Smith 
noted, on May 30 it was announced that a top military official from 
Tajikistan defected in favor of fighting for the terrorist group. The 
official had received formal military training in the United States. 
This troubling incident is indicative of the increased influence ISIL 
is continuing to build in Central Asia, even among powerful 
individuals. We must focus our efforts on nullifying the pretexts ISIL 
uses for recruitment and on destroying the framework of ISIL at the 
source, while simultaneously encouraging respect for human rights and 
bolstering institutions and rule of law in Central Asia and elsewhere. 
During the past decade, this Commission and the Congress have been 
staunch advocates of the counter-terrorism work of the Office of 
Democratic Institutions and Human Rights (ODIHR), OSCE field missions, 
especially those in Central Asia, and the extraordinary efforts of the 
OSCE Parliamentary Assembly. This work must continue into the future 
and must remain a priority for the United States and OSCE member 
States.

Prepared Statement of Hon. Benjamin L. Cardin, Commissioner, Commission 
                 on Security and Cooperation in Europe

    I want to commend the Chairman for convening today's hearing. 
Developments related to the recruitment of foreign fighters throughout 
the OSCE space have been of deep and ongoing concern to me, and I want 
to see continued progress in addressing this matter. The cooperative 
bonds between the peoples of the United States and Central Asian 
countries, I believe, are a solid foundation for us to cooperate on the 
crucial issues of combatting violent extremism and of preventing 
radicalization of individuals to the point that the become foreign 
terrorist fighters.
    As Chairman Smith noted, the Helsinki Commission has strongly 
supported the efforts of the U.S. government over many years to build 
cross-border, comprehensive security based on the shared commitments 
made by all OSCE states--including Central Asians--to respect 
fundamental freedoms. Human beings, whether they live in Washington or 
Paris or Tashkent, should expect of their governments reasonable steps 
to protect them from those who would do them harm, but also that their 
governments not impose repressive security measures that inhibit the 
exercise of freedoms of speech, assembly, media or religion.
    Unfortunately, we have seen such steps taken by governments in 
Russia and Central Asian countries such as Uzbekistan, Kazakhstan and 
Tajikistan. These restrictions fuel resentment on the part of law-
abiding citizens and give the propaganda arms of organizations like 
ISIL ammunition with which to attempt to lure individuals into their 
international terrorist networks. While I look forward to hearing from 
witnesses about the scale of the threat we are confronting and the 
measures we are, or should be taking to counter it, I want to note the 
important multi-dimensional approach to security that is the hallmark 
of the OSCE. As the OSCE's first-dimension, or security dimension, 
response to threats to security and stability in the 21st Century has 
grown to focus on border security, policing and counter-terrorism, we 
have never lost site of the interdependence of such measures with 
economic cooperation and respect for human rights.
    If one looks at the Helsinki Commission's record over time, we have 
advocated for keeping the focus on human rights, democracy and the 
rule-of-law in U.S. policy as even handed as possible, toward allies 
and partners alike. We seek nothing but friendship and cooperation with 
the countries of Central Asia. But friends can--and need to--be honest 
with one another when they see mistakes being made. I take very 
seriously the grave concerns about ISIL and the threat that the 
recruitment of Central Asian fighters--from Russia and their home 
countries--represents to those countries and to the U.S. itself. As we 
listen to the views and suggestions of friends on our own shortcomings, 
I hope that others will be willing to consider our suggestions on how 
they can deal with security challenges like ISIL while respecting their 
OSCE human rights commitments.
    Thank you Mr. Chairman and thanks in advance to our witnesses.

 Prepared Statement of Daniel N. Rosenblum, Deputy Assistant Secretary 
               for Central Asia, U.S. Department of State

Introduction

    Mr. Chairman, members of the Commission: I welcome your invitation 
to review U.S. efforts to address the issue of foreign fighters from 
Central Asia joining the ranks of ISIL (Daesh) and other terrorist 
organizations. The United States is working with governments in Central 
Asia and with multilateral organizations in the region--including the 
Organization for Security and Cooperation in Europe (OSCE)--in ways 
that parallel our work with partners around the world. Together with 
our international partners, we are committing significant resources to 
track and disrupt foreign terrorist fighter travel and recruitment. We 
are working together on information sharing and border security, legal 
reform and criminal justice responses, and countering violent extremism 
to prevent recruitment and radicalization to violence. And we marshal 
our resources to encourage key partners in Europe, North Africa, the 
Middle East, and Asia--including in Central Asia--to prioritize the 
threat, address vulnerabilities, and adopt preventive measures.

Central Asians and the Conflict in Syria and Iraq

    For the overwhelming majority of Central Asians, the conflict in 
Syria and Iraq is a distant phenomenon; it is not something they think 
about day-to-day. But a small minority of Central Asians have been 
successfully recruited by violent extremists to join the conflict. 
Violent extremists have attempted to recruit Central Asians, millions 
of whom live and work in Russia as migrant workers, into the conflict 
in Syria and Iraq. In fact, while the nature of the conflict in Syria 
and Iraq and the clandestine nature of foreign terrorist fighter 
recruitment make reliable statistics nearly impossible to obtain, a 
variety of research suggests the vast majority of Central Asian 
recruits are being recruited from outside the borders of Central Asia, 
and many come from the Russian Federation.
    Why are these Central Asians leaving Russia to fight in Iraq and 
Syria? Motivations vary widely throughout the world, and even on a 
country-by-country basis within Central Asia. One key factor for 
migrant workers in Russia can be the lack of a positive presence of 
family, community, and religious leaders that, back home, would all 
work to prevent recruitment and radicalization to violence. 
Furthermore, once in Russia, Central Asian migrant workers are often 
subject to ghettoization. Many regularly experience discrimination, 
harassment, and humiliation from both the public and the authorities. 
The absence of mitigating factors such as social, familial and 
spiritual bonds together with the presence of aggravating factors such 
as marginalization and disenfranchisement create fertile ground for 
extremist recruiters. Recruiters are able to traverse migrant-labor 
heavy neighborhoods in Russia's cities and use social media to find and 
target their quarry--isolated and lonely individuals who want to feel 
connected to something empowering and larger than themselves, often 
including individuals who were not previously religiously observant or 
educated. Recruiters employ a variety of narratives to attract 
adherents, including the idea of a ``just war'' in defense of 
innocents, an Islamic caliphate as a utopian paradise, and the 
opportunity to fight back against alleged ``Western oppression.'' When 
one or more of these narratives resonate with vulnerable individuals, 
they are encouraged to travel to the conflict zone to take up arms, 
either by recruiters face-to-face or through mechanisms such as social 
media. The new recruits are not only joining ISIL but also a range of 
other terrorist organizations, such as al Nusrah Front, some of which 
in fact are in conflict with ISIL. Recruiters also use similar tactics 
to attract the smaller numbers of individuals who travel directly from 
Central Asia to the conflict zone.
    What can be done to disrupt the flow of Central Asian fighters to 
Syria and Iraq? No one-size-fits-all approach could succeed, since 
radicalization involves a complex interplay of personal, group, 
community, sociopolitical, and ideological factors. Key to countering 
violent extremism is to mitigate causes of radicalization, such as 
economic distress and hopelessness; as such, one key effort is to 
improve economic prospects and job opportunities in the Central Asian 
countries themselves, where radicalization is less likely to take place 
than among migrant worker communities in Russia. Of course, improving 
economic opportunities in Central Asia is a long-term effort, and one 
that the United States and other donor countries have tried for years 
to address through various development aid efforts. There are also 
lessons to be learned about promoting safer labor migration as in the 
countries of South Asia. But there are also plenty of actions that can 
be taken in the short-to-medium term to address the threat of 
recruitment. And so, we have begun to engage the governments of Central 
Asia--and their peoples--about steps they can take to identify and 
disrupt recruiting networks, prevent radicalization to violence, hinder 
financing, monitor and prevent travel and transit of recruits, engage 
civil society to develop resilient communities, build migrant support 
networks, and counter the false narratives spread by violent 
extremists. Additionally, we encourage Central Asian governments to 
identify and act upon credible domestic and transnational security 
threats, and to avoid conflating violent extremism with political 
opposition, the activities of civil society organizations, and peaceful 
religious practice. To prevent radicalization to violence, governments 
need to distinguish peaceful expressions of conscience from genuine 
threats of violence.
    Let me also turn for a moment from the conflict in Syria and Iraq 
to briefly address recent media reports on the presence of ISIL in 
Afghanistan. We have seen signs that ISIL is attempting to spread into 
Afghanistan, and that some Taliban groups have rebranded themselves as 
ISIL to attract funding and recruits. ISIL's presence in Afghanistan is 
a relatively new phenomenon and it will take time to evaluate its long-
term prospects.
    It is clearly a complicated situation, and one that requires a 
complex response. Let me turn to some of the efforts we are undertaking 
globally, regionally, and at the national level through both bilateral 
and multilateral engagement.

Global Efforts

    Under the Global Coalition to Counter ISIL, which we have been 
encouraging our partners in Central Asia to join, our key efforts 
include disrupting the flow of foreign fighters and countering the 
messaging of violent extremists. On the former, efforts range from 
legal reform and criminal justice responses, to border control, to 
information sharing, to interdicting the travel of known and suspected 
terrorists, and more. On counter-messaging, the United States, along 
with the United Arab Emirates and the United Kingdom, lead the 
Coalition Working Group on that subject, which directs coalition 
efforts on counter-ISIL messaging across platforms and languages. The 
UAE has established a messaging center in the UAE and may examine 
prospects for other regional messaging centers. This is a critical 
element because, as I mentioned earlier, so much of the violent 
radicalization and recruitment begins on social media, on people's 
smartphones, where our enemies are employing sophisticated and 
effective techniques, and we have to counter them.
    Another global effort regarding foreign fighters is through the 
United Nations. In September 2014, President Obama chaired a session of 
the United Nations Security Council (UNSC) that adopted Resolution 
2178, which requires countries to take several steps to address the 
threat of foreign terrorist fighters, including preventing them from 
entering or transiting their territories and to adopt and implement 
appropriate legislation to prosecute them. Resolution 2178 also called 
for improved international cooperation through sharing information on 
criminal investigations, interdictions, and prosecutions. The 
resolution marked the first time that the UNSC named countering violent 
extremism as a priority for Member States. The UNSC directed UN 
counter-terrorism organizations to assist countries in enforcing the 
resolution. The resolution resonated in Central Asia, as shown by 
Kazakhstan's statement accompanying the resolution, in which Deputy 
Foreign Minister Yerzhan Ashikbaev said cooperation between neighboring 
States and regional organizations plays a key role in preventing 
terrorism and highlighted specific concerns about young people 
travelling to join ``terrorist-driven conflicts.''
    Third, in February the White House convened the Summit on 
Countering Violent Extremism that brought together ministers from more 
than 60 countries, the United Nations Secretary-General and other 
international organizations--including the OSCE Secretary General--and 
representatives from civil society and the private sector to develop a 
comprehensive action agenda against violent extremism. It charted a 
path for progress that includes a leaders-level summit on the margins 
of the United Nations General Assembly (UNGA) in September 2015. 
Kazakhstan and Kyrgyzstan took part in the event in Washington and have 
continued to engage as the participants have built on the Summit's 
action agenda.
    So that covers some of our global efforts, but what are we 
specifically doing in the region?

Regional Efforts

    At the end of this month, the Government of Kazakhstan will host a 
ministerial-level Countering Violent Extremism (CVE) Summit in Astana. 
The Astana event follows up on the White House CVE Summit and aims to 
bring together government authorities, multilateral representatives, 
and civil society leaders to exchange perspectives and share 
information, and propose programs that will address violent extremism 
at its roots. The Summit's sessions plan to focus on eight priority 
areas:

    <bullet>  Assessing the Drivers and Threats of Violent Extremism in 
South & Central Asia
    <bullet>  Innovative Approaches in Preventing and Countering 
Violent Extremism
    <bullet>  Violent Extremist Propaganda: Countering the Message and 
Offering Alternatives
    <bullet>  Developing National Strategies/Action Plans to Counter 
Violent Extremism
    <bullet>  Promoting Local Research on the Drivers and Spread of 
Violent Extremism
    <bullet>  Building Relationships and Success Stories--Government 
and Community Collaboration
    <bullet>  Empowering youth, women, and religious leaders and civil 
society to prevent violent extremism
    <bullet>  The Role of the Private Sector in Helping to Prevent 
Violent Extremism

Later this month, and complementing the Astana event, we are supporting 
a Civil Society CVE Summit in Istanbul. That summit plans to focus on 
nine priority areas:

    <bullet>  Promoting Local Research and Information-Sharing on the 
Drivers of Violent Extremism
    <bullet>  The Role of Civil Society, including Women and Youth in 
Preventing and Countering Violent Extremism
    <bullet>  Strengthening Community-Police and Community-Security 
Force Relations as Ingredients for Countering and Preventing Violent 
Extremism
    <bullet>  Promoting Positive Narratives and Weakening the 
Legitimacy of Violent Extremist Messaging
    <bullet>  Interactive Technology Training for Addressing CVE
    <bullet>  Promoting Educational Approaches to Build Resilience to 
Violent Extremism
    <bullet>  Enhancing Access to Mainstream Religious Knowledge
    <bullet>  Preventing Radicalization in Prisons and Rehabilitating 
and Reintegrating Violent Extremists
    <bullet>  Identifying Political and Economic Opportunities for 
Communities Vulnerable to Radicalization and Recruitment to Violent 
Extremism

    So our regional approach is to bring together governments and civil 
society across Central Asia to identify the drivers of radicalization 
and find the solutions.We are also helping to support the OSCE as it 
leads several regional efforts on the issue in Central Asia. This past 
February, the OSCE's Transnational Threats Department and its 
Tajikistan office organized a regional three-day workshop on promoting 
regional cooperation and response to foreign terrorist fighters. This 
workshop was the first of its kind in Central Asia and brought together 
participants from government and civil society to discuss the 
requirements of the UNSC and OSCE resolutions on countering foreign 
fighters. From Central Asia, Kazakhstan, Kyrgyzstan, and Tajikistan all 
sent representatives. The OSCE also plans an August regional workshop 
on preventive obligations regarding foreign terrorist fighters under 
UNSCR 2178 in Almaty, Kazakhstan, in addition to a June OSCE-wide 
Conference in Vienna on countering the incitement of foreign terrorist 
fighters and preventing their recruitment and departure. And as a 
follow-up to the White House CVE Summit, the OSCE has developed a 
multi-year program that aims to build the capacity of civil society 
leaders, including youth, women, and religious figures, to contribute 
to CVE efforts.

National Efforts

    Central Asian governments are deeply concerned about the spread of 
violent extremism, and they want to engage with the United States and 
like-minded partners. Our diplomats regularly discuss these issues with 
their counterparts, and we encourage the countries of Central Asia to 
take a comprehensive approach to CVE and countering foreign fighter 
recruitment and radicalization to violence that includes improving 
security and law enforcement capacities consistent with international 
human rights obligations, as well as broadening engagement with civic 
groups, religious organizations, private businesses, and other groups 
to counter the spread of violent extremism through grassroots programs. 
Our bilateral programs also encourage this kind of comprehensive 
approach. These efforts include security-focused programs such as 
building law enforcement capacity and enhanced investigative skills, 
but also broader programs such as those aimed at training law 
enforcement in community policing techniques, or increasing the role of 
religious leaders in conflict resolution at the local level.

Kazakhstan

    As shown by their hosting of the upcoming CVE Summit and co-
sponsorship of UNSC 2178, Kazakhstan is a leader on these issues in the 
region. At the highest levels, Kazakhstan's leadership has stressed the 
importance of joint efforts to discredit ISIL and counter its 
propaganda. We could not agree more, and we look forward to working 
with Kazakhstan and other countries in the region on counter-ISIL 
messaging. We are already working with the Kazakhstanis, through our 
assistance efforts, to help increase access to civically-relevant 
information; and to support increased communication among communities, 
civil society organizations, the private sector and government 
officials. The Department of Defense is also using counter-narcotics 
funding to build the capacity of Kazakhstan's border guards with border 
outposts and training.

Kyrgyz Republic

    The Kyrgyz Republic has followed up on the White House CVE Summit 
with programming and policies based on the Summit's recommendations, 
and our Embassy reports very positive engagement on this issue. U.S. 
development assistance provides economic growth programs designed to 
improve people's lives, promote jobs, and enhance business and trade, 
as well as to support the development of a more collaborative 
relationship between government and civil society. NGOs like Foundation 
for Tolerance International have partnered with the Ministry of 
Internal Affairs (MVD) to conduct preventative training exercises in 
areas that are especially susceptible to recruitment. Our Embassy funds 
programs on increasing the role of religious leaders in peacekeeping in 
volatile areas, as well as English language and vocational skills 
training for madrassah students. And the OSCE, through its Community 
Security Initiative, is embedding police advisors in at-risk 
neighborhoods in the south of Kyrgyzstan to promote community policing 
approaches, encourage ethnic reconciliation, and mitigate tensions.

Tajikistan

    In Tajikistan, we are working to address some of the drivers of 
radicalization by increasing economic opportunities within the country 
in an effort to reduce migration and potential exposure to extremist 
ideologies. USAID's Feed the Future initiative, for example, seeks to 
improve food security, and reduce poverty and hunger. Its programs work 
with local communities to improve irrigation water management and help 
local families to improve the quality and quantity of their crops, 
thereby increasing family incomes. USAID is also helping to strengthen 
citizen participation in local government decision making and to 
improve local governments' abilities to support its communities. The 
Department of State's Bureau for International Narcotics and Law 
Enforcement (INL) operates a Border Guard Infrastructure program that, 
in addition to training and equipping border guards, focuses on 
district-level community policing efforts that work to counter violent 
extremism in remote areas. This program runs in parallel to an OSCE 
project that focuses on regional-level community-policing coordination. 
INL and OSCE are working to dovetail their efforts to create direct 
communication, coordination, and community input on policing efforts at 
district, regional, and national levels. The OSCE has also partnered 
with international and local NGOs on initiatives focused on encouraging 
family members, particularly mothers, to identify and address early 
signs of violent extremism in their local communities. For example, we 
supported a pilot OSCE CVE program in Tajikistan aimed at supporting 
women's roles in security, working with mothers groups in rural 
villages to train them to recognize and respond to early warning signs 
of potential radicalization in their children. We are also in the 
planning stages of a community-based cultural program designed to 
counter extremist messaging in Tajikistan. Additionally, the U.S. 
Department of Defense provides counter-narcotics funding in Tajikistan 
to build the capacity of border guards with border outposts, training, 
and communications gear.

Turkmenistan

    We support an ongoing OSCE project to train officers from 
Turkmenistan's State Border Service on border management that enhances 
that country's ability to patrol and conduct searches, surveillance, 
and counter threats at the border--a key component in the effort to 
identify credible security threats in the region and addressing them 
accordingly. Additionally, in March, we sent representatives to a 
regional workshop on border security management for countering 
terrorism hosted by Turkmenistan and organized jointly by the United 
Nations Regional Center for Preventive Diplomacy for Central Asia 
(UNRCCA), the UN Counter-Terrorism Implementation Task Force, and the 
OSCE's Center in Ashgabat and its Transnational Threats Department/
Action against Terrorism Unit. The workshop focused on countering the 
flow of foreign fighters through enhanced transnational cooperation by 
law enforcement agencies.
Uzbekistan

    For the first time in ten years, two Uzbekistani officials 
participated in training this past April by the Department of Defense 
on the law of armed conflict. The training dealt in part with the nexus 
between terrorism and human rights. In 2014 Uzbek security forces also 
participated in border security training through a resumption of the 
Department of State's Anti-Terrorism Assistance (ATA) program. In 
addition to anti-terrorism training, our Embassy's social media and 
programming in Uzbekistan, as elsewhere in Central Asia, focuses on 
education, family, and peace--topics that, at their heart, are the 
surest ways to counter the appeal of violent extremism over time. 
Furthermore, anti-trafficking activities in Uzbekistan promote safe 
migration and minimize the risk of labor exploitation that can 
exacerbate radicalization.

Conclusion: A Generational Challenge

    To conclude, I could not do better than to quote from the recent 
speech in Doha by General John Allen, Special Presidential Envoy for 
the Global Coalition to Counter ISIL: ``From the point of 
radicalization and recruitment to the process of rehabilitation, we as 
a Coalition and a community of nations must work together to confront 
this generational challenge.''The nations of Central Asia, and the 
nations of the world, are waking up to the challenge of foreign 
terrorist fighters in Syria and Iraq. The United States plans to 
continue to work with global institutions, regional groups, and 
national governments to confront the challenge of foreign fighters and 
reduce the threat to our partners, allies, and to our own country. And 
the Department of State is eager to work closely with this Commission 
and others in Congress to address this generational challenge. Thank 
you and I look forward to your questions.

Daniel Rosenblum is Deputy Assistant Secretary for Central Asia at the 
U.S. Department of State. Working within the State Department's Bureau 
for South and Central Asian Affairs, Mr. Rosenblum oversees U.S. policy 
towards and diplomatic relations with the five Central Asian states.

During 2008-2014, Mr. Rosenblum was Coordinator of U.S. Assistance to 
Europe, Eurasia, and Central Asia. His office provided strategic 
guidance and oversight for all U.S. foreign assistance to more than 30 
countries in the former Soviet Union, the Western Balkans, and Central 
Europe. He and his team coordinated the efforts of more than a dozen 
U.S. government agencies supporting economic reform, the development of 
democratic institutions and rule of law, building the capacity of law-
enforcement and other security-sector institutions, and relieving human 
suffering through humanitarian aid. He also served as the primary U.S. 
government liaison with other international donors, including the 
European Union and multilateral development banks.

During 1997-2008, Mr. Rosenblum held a variety of other positions in 
the Assistance Coordinator's office, including Deputy Coordinator, 
Director of the Eurasia Division, and Special Advisor for Economic 
Programs. He played the lead role in developing economic initiatives 
for several regions of Russia; served as the State Department liaison 
to 10 U.S.-backed investment funds operating in the region; and was 
instrumental in designing and implementing large packages of assistance 
for Ukraine, Georgia and the Kyrgyz Republic following internal 
upheavals, and for Kosovo following its declaration of independence.

Before coming to the State Department, Mr. Rosenblum spent six years as 
Senior Program Coordinator at the Free Trade Union Institute (FTUI) of 
the AFL-CIO. FTUI conducted educational programs and provided technical 
assistance to labor unions in the former Soviet Union and Eastern 
Europe. Mr. Rosenblum managed the operation of field offices in Moscow, 
Kyiv, and Warsaw. While working for FTUI, Mr. Rosenblum also served as 
a public spokesman for the AFL-CIO on the labor movement in the former 
Soviet Union, and social problems associated with the transition to a 
market economy.Mr. Rosenblum has a BA in History from Yale University 
and an MA in Soviet Studies and International Economics from the Johns 
Hopkins School of Advanced International Studies.

 Prepared Statement of Frank J. Cilluffo, Associate Vice President and 
Director, Center for Cyber and Homeland Security, The George Washington 
                               University

    Chairman Smith, Co-Chairman Wicker and distinguished Members of the 
Commission, thank you for the opportunity to testify before you today 
on the issue of foreign terrorist fighters. Your leadership in 
examining this challenge is important because the threat to U.S. 
interests at home and abroad, and to U.S. allies, is both real and 
pressing. At the same time, we cannot go it alone: the threat spans 
national borders, which means that international cooperation and 
transnational solutions are required.
    Allow me to begin with a word about how these remarks are 
organized. This testimony is structured with the bottom line up-front: 
a thumbnail sketch of the problem accompanied by key recommendations 
for action. This executive summary is then followed by additional 
details which serve as context and background for the crucial topline 
material. The latter is intended to serve as a resource for those with 
the time and inclination for a deep dive into the subject at hand.
    The foreign fighter challenge is a matter of serious concern for 
the United States and its allies. While the foreign fighter phenomenon 
is not new, its present scale and scope is unprecedented. As 
individuals from the West travel to conflict zones around the world, 
they are forming new networks with discrete skills and they are 
amassing battle experience that may be turned around and redirected at 
their countries of origin. So-called returnees are a particular 
challenge for domestic law enforcement officials and intelligence 
agencies of the United States and its allies because such individuals 
possess cultural fluency and are able to walk amongst us. While 
tripwires such as exit and entry measures and controls are increasingly 
being adopted by the U.S. and Europe, it remains a challenge to 
identify and intervene before they cause actual harm, given the volume 
of individuals of concern. Communities and local authorities are at the 
tip of the spear in this regard because they are closest to the problem 
and are best placed to identify and prevent it before it fully 
materializes.
    This problem is all the more complex as the U.S. draws down its 
engagement in Afghanistan. This conflict zone and others (such as the 
Maghreb and Sahel) are under-governed spaces where nefarious forces can 
thrive; and with respect to Syria and Iraq, ISIL actually controls 
territory. As the official U.S. presence tapers off in Afghanistan, 
particularly in the context of indigenous forces being either unable or 
unwilling to ramp up commensurately, our adversaries are afforded space 
and time in which to train, plan, plot and recruit.
    Of course the problem is not confined to Afghanistan. To the 
contrary, a variation of the problem extends throughout Central Asia: 
as the Commission has pointed out, the so-called Islamic State in the 
Levant (ISIL) has attracted hundreds if not thousands of fighters from 
``the `stans''. These numbers demonstrate that the ideology and 
narrative of violent Islamist extremist movements and groups continues 
to resonate with and successfully recruit individuals who are 
susceptible to such propaganda.
    In short, foreign fighters pose a threat to innocents within the 
conflict zones, to countries in the surrounding region, and to the 
broader international community. The crucial question, therefore, is: 
what can and should we do to combat this problem? Allow me to offer 
several suggestions.
    First, we need to combat the root of the problem which is the 
ideology upon which ISIL feeds and recruits. Pushing back on this 
narrative in order to expose its inherent inconsistencies and 
falsehoods must therefore be a crucial plank in both national and 
transnational strategy. Unless and until we combat the lifeblood of the 
jihadists in this way, their pool of recruits will continue to grow.
    Second, there are many more operational activities, both within and 
across borders that can be deepened and broadened to achieve more 
robust (counterterrorist) outcomes. Specifically, the United States 
must continue to work in tandem with its allies within the ``Five 
Eyes'' intelligence alliance, and expand its cooperation in this area 
to other countries in Europe and beyond. Information is the crucial 
component that underlies virtually all counterterrorism efforts, both 
domestic and cross-border; hence we must maximize the intelligence that 
US officials and their counterparts in allied nations possess in order 
to best formulate and execute the measures that will keep foreign 
fighters' plans left of boom.
    Third, the United States should work with the countries of Central 
Asia to assist them in building the capacities that are necessary for 
them to be their own best guardians. For instance, more could be done 
in the area of border security (including sharing best practices in 
this field) in order to clamp down on the freedom of travel currently 
experienced by foreign fighter aspirants and returnees.
    The measures recommended above are intended to complement, deepen 
and extend ongoing OSCE work which leverages the Organization's unique 
strengths and abilities.
    Thank you for this opportunity to testify before you today. I look 
forward to trying to answer any questions that you may have. And I hope 
that you find the detailed explanatory material below useful.

Context

The current terrorist threat climate is reminiscent of that prior to 9/
11, marked by budget cuts and the rollback of hard-earned gains. The 
emergence of ISIL, along with active terrorist groups in Nigeria, Mali, 
Yemen, Libya, and Somalia, pose a set of unprecedented challenges. The 
most notable: foreign fighters. These individuals constitute a critical 
threat to the security of the United States and our allies. Foreign 
fighters and bridge figures--the latter equipped with the cross-
cultural fluency to punch up and spread the radicalizing message across 
a broader pool of recruits--come from a myriad of backgrounds, but 
share a common ability to move across borders, extend conflict zones, 
bolster insurgent factions both operationally and motivationally, and 
threaten the territorial integrity of their home countries upon return. 
\1\ ISIL has attracted well over 20,000 foreign fighters (at least 
4,000 of whom Western, including 150 Americans) from nearly 90 
nationalities. \2\ Bridge figures play a key role in radicalizing and 
recruiting Westerners, as was the case when an Uzbek-American from 
Brooklyn was charged with radicalizing three other Central Asian-
Americans and funding their transit to join ISIL in Syria. \3\ 
Countering the extremist threat--abroad and at home--will require 
robust international and domestic partnerships emboldened by a clear-
cut foreign policy and strategy.
---------------------------------------------------------------------------
    \1\  ``Bridge figures'' are defined as primary actors in the 
radicalization process and serve as a major catalyst for recruitment. 
Frank J. Cilluffo, Jeffrey B. Cozzens, and Magnus Ranstorp, Foreign 
Fighters Trends, Trajectories & Conflict Zones (Washington D.C.: The 
George Washington Homeland Security Policy Institute, 2010).
    \2\ Peter Neumann, ``Foreign fighter total in Syria/Iraq now 
exceeds 20,000; surpasses Afghanistan conflict in the 1980s,'' 
International Centre for the Study of Radicalisation, January 26, 2015, 
http://icsr.info/2015/01/foreign-fighter-total-syriairaq-now-exceeds-
20000-surpasses-afghanistan-conflict-1980s/
    \3\  ``Fourth Brooklyn, New York, Resident Charged With Attempt and 
Conspiracy to Provide Material Support to ISIL'', Department of Justice 
Office of Public Affairs, April 6, 2015, http://www.justice.gov/opa/pr/
fourth-brooklyn-new-york-resident-charged-attempt-and-conspiracy-
provide-material-support
---------------------------------------------------------------------------
    Foreign fighters and bridge figures internationalize local 
conflicts, drawing the attention of Western media, promoting the 
jihadist cause, and recreating recruits among populations. Moreover, 
these conflicts became extended through time and space; forming 
networks and cells through which ideology, manpower, and expertise are 
exchanged across borders. The first conflict that involved mobilized 
Islamic foreign fighters for the sake of jihad was the Afghan-Soviet 
War from 1979 to 1992. The modern notion of individual obligation as a 
religious duty was popularized by founding member of al-Qaeda Abdullah 
Azzam. Throughout the 1990s, similar reasoning was used by foreign 
fighters during the Bosnian War, First Chechen War, and Somali 
conflict.
    Many foreign fighters end up returning to their home countries, 
radicalized, jobless, and well-trained. Such was the case after the 
Soviet-Afghan war, as thousands of Arab foreign fighters leveraged 
personal contacts with former comrades and bridge figures to form 
decentralized cells and networks across the Middle East and North 
Africa. This nascent, but growing jihadist scene produced a spate of 
violent attacks against the U.S. and its allies, Arab governments, and 
Israel. Led by Osama bin Laden, al-Qaeda emerged as the ideological and 
operational vanguard of jihadism, inspiring the 1993 attempting bombing 
of the World Trade Center, orchestrating the 1998 U.S. Embassy bombings 
in East Africa, funding local militias in Bosnia and Somalia, and 
staging the 9/11 attacks in 2001.
    At the same time, Afghanistan--thrown onto the back burner by both 
foreign jihadists and American policy-makers--continued to collapse 
under the weight of civil war. Central Asian fighters; the peoples from 
Kazakhstan, Turkmenistan, Tajikistan, Uzbekistan, and Kyrgyzstan, long 
oppressed by their own authoritarian, secular governments, flocked to 
the new dominant force in the region-- the Taliban. The Taliban 
provided Central Asian combatants with a clear banner to mobilize and 
fight under and shielded bin Laden after 9/11. Despite being toppled by 
the U.S.-led International Security Assistance Force (ISAF) in 2002, 
the Taliban resurged in 2006 with the help of the Islamic Movement of 
Uzbekistan (IMU), other Central Asians, Chechens, and Caucasians. The 
U.S. military operations in Iraq in 2003 forced a shift in 
administrative energy, resources, and troops away from the Afghan 
theater, allowing both the Taliban to re-emerge under the regime of 
Hamid Karzai and al-Qaeda in Iraq (AQI) led by Abu Musab az-Zarqawi, to 
expand in the Levant. It is significant to note AQI is ISIL's 
predecessor. Up until this time period, the international jihadist 
network consisted of al-Qaeda ``core''--bin Laden and his small cadre 
of commanders--and its various affiliates. Islamic insurgencies and 
localized, homegrown cells sprouted up through these overlapping 
logistical, financial, and personal networks.
    The fall of Saddam Hussein in 2003 and eruption of region wide 
uprisings in 2011 provided a set of completely unique circumstances 
under which jihadists could threaten Western interests. As opposed al-
Qaeda core's priority of hitting the ``far enemy'', or the U.S. and the 
West, the Islamic State or ISIL emphasized and was successful at 
consolidating and governing territory. It has done so in Syria, Iraq, 
and Libya; supported by cells across the region and world. ISIL's 
declaration of the ``Caliphate'' in June 2014 bolstered by a 
sophisticated, savvy media campaign--two things al-Qaeda never fully 
achieved--has given it unprecedented legitimacy and appeal in the eyes 
of foreign fighters. ISIL has attracted well over 20,000 foreign 
fighters (at least 4,000 of whom Western) from nearly 90 nationalities. 
\4\ To provide a sense of scale, these numbers are unprecedented 
compared to the Soviet-Afghan War, which attracted 5,000 Muslims from 
around the world, the Chechnya conflict 1,000 fighters, Operation 
Enduring Freedom in Afghanistan 1,000, and Operation Iraqi Freedom 
4,000. \5\
---------------------------------------------------------------------------
    \4\  http://www.washingtoninstitute.org/policy-analysis/view/the-
islamic-state-a-video-
introduction
    \5\  http://www.washingtoninstitute.org/policy-analysis/view/the-
islamic-state-a-video-
introduction
---------------------------------------------------------------------------
    With most of the international community's attention on Syria and 
Iraq, a loss of focus on Afghanistan can lead to the rollback of hard-
earned gains that had been achieved through the investment of $686 
billion and, most importantly, the lives of over 2,000 of our men and 
women in uniform. If the U.S. ends military operations in Afghanistan 
by the scheduled January 20 2016 deadline, we run the risk of allowing 
the Taliban, both al-Qaeda and ISIL-backed elements, to carve out safe 
havens. Given the freedom to operate in such havens, there is a greater 
likelihood foreign terrorist organizations will be better positioned to 
plan and conduct attacks against the U.S. and Europe. The key to the 
Taliban's survival and success: Central Asian fighters. If the U.S. can 
cooperate with regional and international allies to not only stem the 
growth of Western jihadism, but also the free flow of Central Asian 
militants to and from Afghanistan--some pro-ISIL and some not--then the 
security of the American homeland and our allies will be better 
addressed.

ISIL and Central Asia

While most of the international community is focused on Syria and Iraq, 
a regional crisis is brewing in Central Asia and Afghanistan. The 
activation and growth of Central Asian foreign fighter networks pose 
three acute threats to U.S. security. First, these individuals provide 
direct support to ISIL's foothold in the Levant and stand to protract 
the conflict found there. Second, when these fighters return to their 
home countries, many will use the financial, logistical, and military 
skills acquired in the Levant and Afghanistan to form cells and groups 
in Central Asia. Third, the entrance of ISIL-branded elements in the 
Federally Administered Tribal Areas (FATA) internationalizes the fight 
against a Taliban rejuvenated by Central Asian foreign fighters.

Direct Support

    ISIL has made clear that it intends to engage heavily with Central 
Asian Islamists. In January, its leadership began a charm offensive and 
leveraged their position as an anti-establishment, Islamic alternative 
to the region's secular regimes. ISIL's leadership has been able to 
claim some level of religious authority, as it has effectively exposed 
the (fairly naked) ties that moderating voices have to the government. 
This political positioning has been bolstered by promises of economic 
opportunity, with advertised salaries ranging as high as $5,000 per 
month. In contrast to the glossy tactics used to attract Western 
fighters, social media plays a more limited role. The `old pulls' of 
economic opportunity and an outlet of political expression foster a 
deeper support and will require a corresponding countering violent 
extremism strategy.
    The approach has been quite successful to date--some estimates hold 
that 
4,000 \6\ Central Asian foreign fighters have begun to fight in the 
Levant. According to the International Center for the Study of 
Radicalization (ICSR), there are an estimated 500 Uzbeks, 360 Turkmen, 
250 Kazaks, 190 Tajiks, and 100 Kyrgyzs, bolstered by 1,500 Caucasians 
and 800-1,500 Russians fighting in Syria. \7\According to the U.S. 
Counter-Terrorism Center, there are more than 1,000 Kazakhs fighting 
for ISIL. \8\ Like Western foreign fighters, Central Asians provide 
propaganda and language services for recruitment abroad. In Syria and 
Iraq, Central Asians are divided along ethnic and linguistic lines into 
jamaats, or factions. Some of the most prominent ones like the Uzbek 
factions Katibat al-Imam Bukhari and Sabri's Jamaat--both of which 
operate in northern Syria alongside 1,500 veteran Caucasian fighters--
have pledged allegiance to ISIS. \9\ These factions mostly operate out 
of northern Syria, contributing to ISIL's dominance in Raqqa and never-
ending attempts to take Aleppo, Idlib, and Latakia. In the absence of 
U.S. Special Forces and human assets on the ground to guide air 
strikes, these fighters enjoy more time to train, plot, and execute 
attacks against moderate Syrian rebels.
---------------------------------------------------------------------------
    \6\  http://tonyblairfaithfoundation.org/religion-geopolitics/
reports-analysis/report/isis-central-asia-growing-threat
    \7\  http://icsr.info/2015/01/foreign-fighter-total-syriairaq-now-
exceeds-20000-surpasses-afghanistan-conflict-1980s/
    \8\  http://www.csce.gov/
index.cfm?fuseaction=contentrecords.viewdetail&contentrecord-
id=1199&contentrecordtype=p&contenttype=p
    \9\  http://jihadology.net/2014/07/22/al-%E1%B8%A5ayat-media-
center-presents-a-new-video-message-from-the-islamic-state-join-the-
ranks/http://www.rferl.org/content/under-black-flag-central-asia-
militants-allegiance/26666098.html

---------------------------------------------------------------------------
Cell Formation

Central Asians and Caucasians not only fill the rank-and-file, but also 
important leadership positions. ISIL's Central Asian commanders with 
previous military experience--for example, ISIL's northern Syria Emir 
Umar al-Shishani, a former Special Reconnaissance soldier in the 
Georgian Army and Tajikistan's former Special Forces chief Gulmurod 
Khalimov--are particularly dangerous for several reasons. \10\ These 
fighters, through mosques, prayer rooms, and personal connections, have 
been able to recruit and radicalize hundreds of Central Asian youth 
alongside ISIL. The combination of a committed leadership pool and a 
broadened domestic base imbues the region with the necessary raw 
materials for violent Islamist organizations to form domestically. As 
leaders begin to convert their operational and administrative knowledge 
into active terror cells, Central Asian governments may be forced to 
contend with new threats.
---------------------------------------------------------------------------
    \10\  http://www.bbc.com/news/world-asia-32917311
---------------------------------------------------------------------------
    These fronts will be further enhanced by returning foreign 
fighters. Central Asian Islamist groups--driven by the desire to 
establish a transnational Caliphate across the region since the 1990s--
have a long history of armed opposition to both pre- and post-Soviet 
regimes. The success of these groups spawned a plethora of 
decentralized Islamist extremist groups. Some engaged American and 
Pakistani troops in Afghanistan and Pakistan and others remained at 
home to conduct bomb attacks and assassination of regime targets. In 
essence, Islamist militancy in Central Asia--long cultivated by a 
history of social and economic oppression by secular police states--
spawned a cadre of battle-hardened jihadis bent on transiting from one 
conflict zone to another to establish an Islamic state. It is no 
accident that the IMU experienced a pronounced period of resurgence, 
immediately following the return of Taliban-
affiliated foreign fighters from Afghanistan. The result in Central 
Asia could prove to be an existential threat for some of the region's 
governments.

Conflict Convergence

Foreign fighter recruitment has served as a platform from which ISIL 
has grown its physical presence. In September, the Islamic Movement of 
Uzbekistan--one of the region's most active terror organizations--
effectively severed its ties to the Taliban and pledged allegiance to 
ISIL's leadership. The move represented a large swing of momentum in 
ISIL's favor and was accompanied by the emergence of ISIL-affiliated 
fighters in Northern Afghanistan's Kunduz Province. From here, 
operations have expanded into parts even less easily governed. The 
Fergana Valley--a remote region that is incorporated into parts of 
Uzbekistan, Kyrgyzstan, and Tajikistan--has the beginnings of a 
promising haven for returning ISIS fighters. And--as we saw in the 
April attacks in Eastern Afghanista--ISIL will challenge Taliban 
territories in and around the Federally Administered Tribal Areas 
(FATA).
    The most pressing concern lies in the FATA, however. Here, ISIL and 
the Taliban are poised to battle one another for regional supremacy. 
Syria's own civil war has shown that national militaries are ill-suited 
to maintain territorial integrity, while combatting two rival 
adversaries. In particular, an unproven Afghan National Army (ANA) 
stands particularly vulnerable to these challenges. Geographically 
challenging borders stand to exacerbate the problem and will likely be 
exploited by transnational groups who can more easily move materiel 
across national borders. Ultimately, decisive action will be required 
if countries around the world are to deny ISIL a stronghold that has 
lent its occupier the ability to stage more destructive attacks.

Remedies

In order to stem ISIL's further expansion into Central Asia and 
Afghanistan, the United States needs to work with domestic and 
international partners to ensure both short and long-term security. The 
instability in Afghanistan is largely attributed to the conflating 
violence in Syria and Iraq, as it is reported that 2,000-4,000 Central 
Asians are fighting on behalf of ISIL. \11\ These individuals are 
leveraging the political and economic marginalization of Muslim 
communities to recruit and radicalize others. The police states of 
Central Asia view ISIL not only as a security threat, but also an 
excuse to crack down on political dissent--further crushing prospects 
of political and social change. Circumstances warrant a security-
oriented strategy that reunites and enhances our relationship with the 
``Five Eyes'' (U.S., United Kingdom, Australia, Canada, and New 
Zealand), the world's strongest and most valuable counter-terrorism 
partnership. We can take various lessons from this dynamic and expand 
it to our European Union, transatlantic, and then, Central Asian 
partners to fully curtail the foreign fighter and homegrown threat. On 
the other hand, to prevent the opening up of terrorist safe havens in 
Afghanistan and possible collapse of the nascent Kabul government and 
Afghan National Army (ANA), the United States should not make the same 
mistake as it did when disengaging from Afghanistan in 2003 and Iraq in 
2011. Foreign fighter pipelines have intensified, requiring even more 
determination, focus, and willpower to sustain our counter-
terrorism and military efforts in the FATA.
---------------------------------------------------------------------------
    \11\  http://www.crisisgroup.org/en/regions/asia/central-asia/b072-
syria-calling-radicalisation-in-central-asia.aspx
---------------------------------------------------------------------------
    First, the U.S. needs to take on a clear yet broad-based stand 
against foreign fighters. This may include a more concerted effort to 
enforce U.N. Security Resolution 2178 (2014), which lays out 
appropriate measures on preventing inter-state travel of foreign 
fighters, enforcing proper information-sharing practices within 
national security systems, and criminalizing terrorist activity. \12\ 
In terms of counteracting Western foreign fighters, the Five Eyes may 
consider expanding intelligence cooperation to include other European 
nations that suffer from radicalization and extremism, such as Germany, 
the Netherlands, Denmark, Belgium, France, Norway, Spain, Italy, and to 
a controlled degree Turkey, the Balkan states, and Central Asia. 
Integrating European and Central Asian intelligence can provide the 
necessary framework for broader, more global law enforcement 
information-sharing equipped with secure communications networks, 
databases, and a system of notices, plus measures to track illicit 
money transfers, stolen, forged identity papers and travel documents.
---------------------------------------------------------------------------
    \12\  http://www.securitycouncilreport.org/atf/cf/%7B65BFCF9B-6D27-
4E9C-8CD3-CF6E4FF96FF9%7D/s_res_2178.pdf
---------------------------------------------------------------------------
    An example of the present lack of critical information sharing is 
the relative ease in transferring personnel and resources from the 
Levant, either through Turkey and the Caucasus and across the Caspian 
Sea or overland through northern Iran, into Afghanistan. Travel to 
Turkey is visa-free for citizens of Kazakhstan, Kyrgyzstan, Tajikistan, 
and Turkmenistan, while Uzbeks can get a 30-day visa upon arrival. \13\ 
Intelligence sharing between Turkish authorities and Central Asian 
security services is lackluster. As one of its NATO allies, the U.S. 
should encourage Turkey to re-evaluate its liberal travel controls and 
cooperate more with Central Asian nations. In order for this to occur, 
there needs to be greater efforts to identify and investigate potential 
foreign fighters. There are several mechanisms designed to maintain and 
improve border management in Central Asia, including the Organization 
for Security and Co-operation in Europe (OSCE) and the Border 
Management Programme in Central Asia (BOMCA). BOMCA is a European 
Union-U.N. Development Programme joint venture meant to promote 
stability and security of Central Asian nation-states through 
integrated, modernized border management. \14\ Originally conceived to 
combat the illicit transit of goods and personnel across Central Asia, 
BOMCA should be develop the capacity--through U.S. and European 
assistance--to combat foreign fighter migrations. This means more 
intelligence sharing to help border security officials identify, 
apprehend, and ultimately prosecute violent extremists. The OSCE has 
two lines of programming that can assist the BOMCA in beefing up border 
practices: border management and combating terrorism. \15\ However OSCE 
and BOMCA activities are not streamlined and they lack information 
sharing amongst themselves, let alone between the nation-states they 
are attempting to help. \16\
---------------------------------------------------------------------------
    \13\  http://www.crisisgroup.org//media/Files/asia/central-asia/
b072-syria-calling-radicalisation-in-central-asia.pdf
    \14\  http://www.undp.org/content/brussels/en/home/
partnerships_initiatives/results/bomca.html
    \15\  http://www.osce.org/secretariat/110768
    \16\  Law, David. ``Intergovernmental Organisations and Security 
Sector Reform''
---------------------------------------------------------------------------
    To make border management more geared towards counter-terrorism, it 
is worth considering creating a liaison office that integrates the OSCE 
and BOMCA offices with the Joint Plan for Action for Central Asian 
States under the U.N. Global Counter-Terrorism Strategy and Istanbul 
Process. The former enables all states to agree on a broad strategy to 
combat terrorism. A major issue is the sluggish process of 
implementation across national contexts and regional relationships. 
\17\ The Istanbul Process, focused on security and development, also 
faces issues of integration and implementation. Kazakhstan, the largest 
Central Asian nation, is not formally a member in the Process's 
counter-terrorism section. \18\
---------------------------------------------------------------------------
    \17\  http://www.washingtonpost.com/blogs/monkey-cage/wp/2014/12/
26/counter-terrorism-in-
central-asia-requires-international-cooperation/
    \18\  http://www.washingtonpost.com/blogs/monkey-cage/wp/2014/12/
26/counter-terrorism-in-
central-asia-requires-international-cooperation/
---------------------------------------------------------------------------
    Better border management with an orientation towards counter-
terrorism and transnational security will reduce the spillover of 
violence into northern Afghanistan, where the Taliban and ISIL-
affiliated groups are not only fighting each other, but also the ANA. 
ISIL's goal is to one day merge its Wilayat al-Khorasan, or ``Khorasan 
Province'' with its territory in Syria and Iraq. This prospect is 
unlikely, but constitutes a direct threat to Afghanistan. President 
Obama's rapid withdrawal of American troops from Iraq in 2011 should 
serve as a valuable lesson in maintaining our political, economic, and 
humanitarian commitment to Afghanistan. In Iraq, our lack of presence 
in the post-withdrawal period afforded then-Prime Minister Nouri al-
Maliki a complete mandate to fill political and military ranks with 
Shiite loyalists, dilapidating an Iraqi military that the United States 
had spent $25 billion to train and equip. \19\ The Sunni population was 
marginalized and pushed into the arms of a rejuvenated ISIL. To avoid a 
similar situation in Afghanistan--where the United States has spent 
$686 billion since 2001--American military officials, in tandem with 
Kabul, should continue to pressure Taliban and ISIL-affiliated elements 
with counter-terrorism and military operations led by Special Forces 
and covert elements to earmark airstrikes. \20\ The continued presence 
of U.S. troops will help the ANA prevent the Taliban or ISIL from 
taking over and consolidating territory and forming potential safe 
havens.
---------------------------------------------------------------------------
    \19\  http://www.stripes.com/us-advisers-hope-realistic-training-
scenarios-help-iraqi-troops-face-islamic-state-fighters-1.343931
    \20\  https://www.fas.org/sgp/crs/natsec/RL33110.pdf
---------------------------------------------------------------------------
    A consistent ANA campaign backed by U.S. airstrikes will 
subsequently strengthen the Afghan government's position in 
negotiations with the Taliban. The best option is to leave the U.S. 
troop withdrawal deadline unknown to the international community and 
U.S. public. Once the Taliban and ISIL know the definite date, they 
will hunker down, wait out the drone strikes, and re-emerge to feast on 
the ANA. Air strikes and presence of American operatives dramatically 
increases the costs for the Taliban to operate in the open, maintain 
pipelines to other parts of the region, facilitate transit, and build 
training camps. This gives our enemies less time to train, plot, and 
execute terrorist attacks while giving our allies more time to train, 
obtain experience, and become a more competent fighting force. Plus, If 
Ghani reaches a tentative deal with the Taliban, ISIL's position will 
be significantly weakened. ISIL, which already clashes with the Taliban 
over territory and ideological legitimacy, risks opening up a second 
front with its Pashto rivals.

Frank J. Cilluffo is an Associate Vice President at The George 
Washington University where he leads a number of national security and 
cyber security policy and research initiatives. Cilluffo directs the 
Center for Cyber and Homeland Security, is co-director of GW's Cyber 
Center for National and Economic Security and along with the School of 
Business, launched the university's World Executive MBA in 
Cybersecurity program.

Cilluffo is routinely called upon to advise senior officials in the 
Executive Branch, US Armed Services, and State and Local governments on 
an array of national and homeland security strategy and policy matters. 
He also frequently briefs Congressional committees and their staffs and 
has testified before Congress over 25 times at high profile hearings on 
counterterrorism, cyber threats, security and deterrence, weapons 
proliferation, organized crime, intelligence and threat assessment, as 
well as emergency management, border and transportation security. 
Similarly, he works with US allies and organizations such as NATO and 
Europol. He has presented at a number of bi-lateral and multi-lateral 
summits on cybersecurity and countering Islamist terrorism, including 
the UN Security Council.

Cilluffo serves or has served on various national security-related 
committees sponsored by the US government and non-profit organizations, 
including the Homeland Security Advisory Council, where he served as 
the Vice Chairman of the Future of Terrorism Task Force. Cilluffo also 
served as a member of the Secure Borders and Open Doors Advisory 
Committee, Defense Science Board committees and summer studies, and 
along with Norm Augustine, chaired the first Quadrennial Homeland 
Security Review Advisory Council.

Cilluffo joined GW in 2003, establishing CCHS as a prominent 
nonpartisan ``think and do tank'' dedicated to the building bridges 
between theory and practice to advance US security. CCHS has hosted 
numerous Cabinet Members and agency directors, military and law 
enforcement officers, Members of Congress, diplomats, business 
executives and academics and has issued dozens of reports that are 
widely cited by media, research institutions, think tanks and 
governments.

Prior to joining GW, Cilluffo served as Special Assistant to the 
President for Homeland Security. Immediately following the September 
11, 2001 terrorist attacks, Cilluffo was appointed by President George 
W. Bush to the newly created Office of Homeland Security. During his 
tenure at The White House, he was involved in a wide range of 
counterterrorism and homeland security strategy and policy initiatives, 
served as a principal advisor to Governor Tom Ridge, and directed the 
President's Homeland Security Advisory Council.

Prepared Statement of Jennifer Leonard, Deputy Director, International 
                              Crisis Group

    Thank you for the opportunity to speak before the Helsinki 
Commission today. My organization, the International Crisis Group, 
values the Commission's sustained focus on Central Asia.
    As an international conflict prevention organization, our approach 
is grounded in field-based research. We have teams of political 
analysts located within or near countries vulnerable to violent 
conflict and based on our research and analysis, we develop policy 
recommendations to prevent and resolve it.
    We have covered Central Asia for over 15 years. From our current 
base in Bishkek, we conduct frequent visits throughout the region 
exploring the challenges and opportunities facing it, with particular 
focus on the interplay of democratic repression, threat of 
radicalization, and the decay of the economy and infrastructure.
    In January 2015 we published, Syria Calling: Radicalisation in 
Central Asia, which addresses the very topic of today's discussion.

INTRODUCTION: The Islamic State (IS) is attracting a coalition of 
Central Asian jihadis and sympathisers and fostering a network of links 
within the region. Prompted in part by political marginalisation and 
bleak economic prospects, in the past three years IS has beckoned 
roughly 2K-4K Central Asian citizens. \1\ While the phenomenon has a 
disproportionate impact on security perceptions at home, the region 
supplies only a small fraction of IS fighters in Syria, however, if 
enough return, they could present a risk to regional security and 
stability.
---------------------------------------------------------------------------
    \1\  Official Central Asian governments' estimates of several 
hundred are conservative. Western officials suggest the number is 
2,000, and it may be as many as 4,000. Western officials estimate that 
about 400 fighters from each of the five Central Asian countries have 
travelled to join the Islamic State. A Russian official put the total 
regional figure at 4,000. Crisis Group interviews, Bishkek, October 
2014; Astana, November 2014.
---------------------------------------------------------------------------
    This presents a complex problem to the five CA governments, each of 
whom suffers from its own brand of poor governance, poverty, and 
corruption and has struggled to accommodate the growth of religion and 
religious organisations. The belief that Syrian-trained jihadis plan to 
establish a caliphate in the region has shaped the security debate and 
response in each--including increased surveillance, harassment and 
detentions--and provides additional justification for ever-stricter 
laws on religious practice and expression that may be 
counterproductive.
    Meanwhile, the call of IS--which says it wants not just fighters 
but also facilitators, e.g. teachers, nurses, engineers--can appear to 
offer an attractive alternative for those alienated, marginalized, or 
discriminated against, who are inspired by the belief that an Islamic 
state is a meaningful alternative to post-Soviet life.

PROFILE. There is no single profile of an IS supporter from Central 
Asia: rich/poor, young/old, men/women, educated or not. There are 
seventeen-year-old hairdressers, established businessmen, women 
abandoned by husbands who have taken second wives in Russia, families 
who believe their children will have better prospects in a caliphate, 
young men, school dropouts and university students.
    The largest single group is reportedly Uzbek, both citizens of 
Uzbekistan and ethnic Uzbeks from the Ferghana Valley, including Osh, 
Kyrgyzstan's southern city, where risks have amplified since the 
violence in 2010 that killed over 400 ethnic Uzbeks. \2\ While Tashkent 
estimates 500 of its citizens are in Syria, they could exceed 2,500. 
\3\ With the exodus that began in the Valley in 2011, perhaps 1,000 men 
and women [including 500 ethnic Kyrgyz and others from Osh] have left 
to fight for or provide humanitarian assistance to IS. \4\ In northern 
Kyrgyzstan there could be another 300 unreported cases. \5\
---------------------------------------------------------------------------
    \2\  Many ethnic Uzbeks have retreated from engaging with the 
Kyrgyz authorities for fear of harassment and extortion. Many men have 
migrated to Russia to find work and escape discrimination. Unlike 
ethnic Kyrgyz elsewhere in the country, Uzbek families are unlikely to 
report or seek help regarding the radicalisation of relatives since it 
invites at best state surveillance, at worst detentions, beatings or 
demands for cash. Inter-ethnic tensions in southern Kyrgyzstan have 
gone unresolved, and the political and economic marginalisation of the 
Uzbek community contributes to the appeal of radical groups, 
particularly Hizb ut-Tahrir, and the jihadi cause in general.
    \3\  Crisis Group interview, Russian official, September 2014, who 
also said there were 2,500 Russian citizens fighting in Syria.
    \4\  Crisis Group interviews, senior Kyrgyz official, Bishkek, July 
2014; senior police officer, southern Kyrgystan, August 2014; Uzbek 
opposition activist, Turkey, September 2014.
    \5\  20 former residents from just one medium-sized town are 
reported to have travelled to Turkey in 2013 with the intention of 
going on to Syria; Crisis Group interview, Kyrgyz security official, 
Chui province, Kyrgyzstan, May 2014.
---------------------------------------------------------------------------
    In Kazakhstan, IS supporters tend to come from the west and south 
of the country, but not exclusively. \6\ Some 150 people made headlines 
when a video showing them in Syria appeared on YouTube in October 2013. 
\7\
---------------------------------------------------------------------------
    \6\  Crisis Group telephone interview, Kazakh security expert, 
Astana, October 2014.
    \7\  ``Astana probes video allegedly showing Kazakh `jihad' family 
in Syria'', Radio Free Europe/Radio Liberty (RFE/RL), 21 October 2013.
---------------------------------------------------------------------------
    In Tajikistan, recruitment is nationwide but appears strongest in 
two particular provinces. At least twenty people left from just one 
village in September 2014 \8\ and recent revelations that a senior 
Tajik security official, who disappeared only to resurface in an IS 
propaganda video calling for violent jihad, has rattled 
the region. \9\
---------------------------------------------------------------------------
    \8\  Masum Mukhammadradjab, ``Chorqishloq: Birthplace of 20 
participants in the Syrian war'', Radio Ozodi, 25 September 2014.
    \9\  Col. Khalimov was an intimate of the elite--the head of 
Tajikistan's Special Assignment Police Unit (OMON), a key element in 
the security apparatus, he has trained in Russia and the US. His 
defection is a blow to Rahman's regime on many levels, as he speaks to 
the parts of the elite not yet bought off and to the alienation of a 
substantial segment of society.

    [It is worth noting that estimates vary among local, national, 
Russian and Western security sources, underlining significant 
information gaps which in turn complicate efforts to create prevention 
---------------------------------------------------------------------------
and rehabilitation policies.] 

RECRUITMENT: Recruitment of these individuals is happening at local 
levels, by word-of-mouth. Some are recruited at home-- in mosques and 
prayer rooms. Others are radicalised abroad, often as migrant workers 
[where dislocation can lead them into the arms of jihadi recruiters]. 
\10\ The internet and social media play a critical but not definitive 
role.
---------------------------------------------------------------------------
    \10\  Its Federal Migration Service estimates there are some 3.95 
million Kyrgyz, Tajik and Uzbek citizens working in Russia. See 
[``There are more than 550 thousand Kyrgyz citizens in Russia''], Radio 
Azattyk, 20 November 2014.
---------------------------------------------------------------------------
    While groups such as Hizb ut-Tahrir and Tablighi Jamaat play a 
peripheral role in so far as both men and women may be radicalised as 
they gravitate toward their teachings, these groups do not appear to be 
directly involved with recruiting to Syria, though they are sometimes 
unwittingly staging posts in the journey [to extremist violence]. \11\
---------------------------------------------------------------------------
    \11\  Tablighi Jamaat, a non-violent organisation founded in 1926 
in India, is banned in every Central Asian state but Kyrgyzstan. Hizb 
ut-Tahrir, a non-violent organisation that seeks to establish a 
caliphate, is banned in all five Central Asian states.
---------------------------------------------------------------------------
    More worrying for the regional security climate is the way Syria 
appears to have provided the Islamic Movement of Uzbekistan (IMU) and 
its offshoots with a renewed sense of purpose. While the IMU and Afghan 
Taliban have long-established links, for a while the IMU and IS kept a 
polite but admiring distance from one another. However, in March 2015 
the IMU released an IS style-beheading video [shot in northern 
Afghanistan] to declare their allegiance to the organisation.

MOTIVATIONS: Socio-economic factors play a role but economic reward is 
not a motivation. Rather it is the idea of holy struggle to advance 
Islam. Frustrated and excluded, people who would not have considered 
fighting with the longer-established IMU or Taliban perceive IS as the 
creator of a novel political order, a more universal purpose: the 
creation of a caliphate. An imam from southern Kyrgyzstan compared it 
to Afghanistan, told us that ``Syria is about principles, not 
colonialism''. And not all who go to Syria want to engage in violence, 
but accept that others will do it for them in pursuit of the ordained 
cause.
    For women, the traditional and state-approved Muslim community's 
relative disinterest in their role allows underground groups to fill a 
need. Radical Islam also gives some a framework to distance themselves 
from marital and family circumstances. For other women, it is the call 
of a devout life, or an Islamic environment for their children. Still 
others follow fighters or family members who have established contacts 
in Turkey or IS-controlled territory.

RISK OF RETURN: While the numbers of Central Asians receiving combat 
training and progressing through IS command structures is increasing, 
so far, returning jihadis are a danger to be prepared for rather than 
an immediate threat. For the time being, Central Asia is fortunate that 
Syria is relatively distant, no major attacks have yet occurred, \12\ 
and the risks posed by returning jihadis are still in relative infancy. 
In fact, many will not return because they will die in Syria.
---------------------------------------------------------------------------
    \12\  Alleged plots included bomb attacks in Bishkek and Dushanbe 
and on strategic road tunnels through the Tajik mountains.
---------------------------------------------------------------------------
    In the meantime and though keenly aware of the dangers returning 
fighters could pose, beyond instituting measures criminalizing fighting 
abroad, \13\ Central Asian governments have done little to address the 
reasons why such a diverse cross-
section of their citizens seek to participate in IS, nor have they 
contemplated how the dynamic might relate to broader unmet societal 
demands. Prevention of extremism and rehabilitation of jihadis are not 
high on the agenda and female radicalisation, in particular, is largely 
ignored [by religious leaders].
---------------------------------------------------------------------------
    \13\  Tajikistan and Kazakhstan have introduced laws criminalizing 
fighting abroad, the former coming into effect in July 2014, the latter 
on 1 January 2015. Uzbekistan banned terrorism training without 
reference to location in January 2014, but the law was widely 
interpreted as directed against foreign-trained fighters. The law 
states that persons with no previous convictions who turn themselves in 
will not be held criminally liable (no such provision in the 
legislation of Kazakhstan, Kyrgyzstan and Tajikistan,) but doubt 
surrounds Uzbekistan's actual willingness to rehabilitate returning 
fighters. Kyrgyz parliament approved criminal code amendments 
suggesting sentences of eight to fifteen years for taking part in 
conflicts, military operations or terrorist- or extremist-training in a 
foreign state in September 2014, but these have yet to be signed into 
law.

CONCLUSION: These dynamics risk gathering pace and purpose, blindsiding 
governments ill-prepared to respond to such a complex security threat 
and tempted to exploit it to crack down on dissent. These governments 
must assess accurately the long-term danger jihadism poses to the 
region and take effective preventive action now. This does not mean: 
labeling unfamiliar interpretations of Islam as extremist, adopting 
increasingly severe laws to limit freedom of conscience and 
association, or promoting intrusive security practices, etc.
    Rather, effective prevention means responding to an unmet demand 
for increased democratic space, revising discriminatory laws and 
policies, implementing outreach programs, creating jobs at home for 
disadvantaged youth, ensuring better coordination between security 
services, and tackling police reform, starting with the most basic 
matter of how they are perceived by the communities they serve.
    For its part, the U.S. and other regional partners should recognise 
that Central Asia is a growing source of foreign fighters and consider 
prioritising police reform and a more tolerant attitude to religion, in 
its bilateral engagements and programming. Indeed, there are lessons to 
be gleaned [from places like Denmark and Indonesia], \14\ but the 
capacity of Central Asian governments to absorb and implement these 
lessons are undermined by weak state structures and lack of political 
will.
---------------------------------------------------------------------------
    \14\  In Denmark, effective rehabilitation programs are based on 
trust built up between the authorities and the families of fighters. In 
Indonesia, police forces develop responses to radicalisation in terms 
of improved intelligence-gathering techniques and building community 
relations, as well as rehabilitation.

Jennifer Leonard joined Crisis Group's Washington office in June 2002. 
As Washington Advocacy Director, she works across the spectrum of 
Washington's foreign policy actor--including the Administration, 
Congress, media, think-tanks, and non-governmental organizations 
(NGOs)--to design and implement strategies that impact the policy 
process. She also has primary responsibility for advocacy and research 
in Crisis Group's Central Asia, South East Asia, North East Asia and 
---------------------------------------------------------------------------
Caucasus projects.

Jen came to Crisis Group after three years with the U.S. Department of 
Energy where she worked for the Assistant Secretary for Nuclear 
Nonproliferation, then as special assistant to the Administrator of the 
National Nuclear Security Administration. At the Department of Energy 
she oversaw aspects of a new non-proliferation initiative, helped 
establish the Russia Task Force, worked at the U.S. Embassy Moscow, and 
liaised with other U.S. government entities, international 
organizations, and foreign governments on national security matters. 
Before joining the government, she worked with variety of NGOs, 
including Conflict Management Group, a non-profit consulting company 
dedicated to promoting peacebuilding through engagement, training and 
research.

She has been an Associate at Harvard Law School's Program on 
Negotiation, a Graduate Fellow at the U.S. Embassy in Yerevan, Armenia, 
and a regular contributor to the Organization for Security and 
Cooperation in Europe's election-related activities in the Balkans and 
Caucasus. She earned her MA from the Fletcher School of Law and 
Diplomacy and a B.A. from Connecticut College.

                                 [all]



                                      
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
